APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion and Judgment in the United
States Court of Appeals for the Sixth
Circuit
(May 15, 2019) . . . . . . . . . . . . . . . App. 1
Appendix B Memorandum Findings of Fact and
Opinion in the United States Tax
Court
(November 6, 2017). . . . . . . . . . . App. 24
Appendix C Tenn. Code Ann. § 66-3-301 . . . App. 90
Tenn. Code Ann. § 66-3-302 . . . App. 90
Tenn. Code Ann. § 66-3-303 . . . . App. 94
Tenn. Code Ann. § 66-3-304 . . . . App. 95
Tenn. Code Ann. § 66-3-305 . . . . App. 96
Tenn. Code Ann. § 66-3-306 . . . . App. 97
Tenn. Code Ann. § 66-3-307 . . . . App. 98
Tenn. Code Ann. § 66-3-308 . . . . App. 99
Tenn. Code Ann. § 66-3-309 . . . App. 100
Tenn. Code Ann. § 66-3-310 . . . App. 102
Tenn. Code Ann. § 66-3-311 . . . App. 103
Tenn. Code Ann. § 66-3-312 . . . App. 103
Tenn. Code Ann. § 66-3-313 . . . App. 103
26 U.S.C. § 6901 . . . . . . . . . . . . App. 104

App. 1

APPENDIX A
RECOMMENDED FOR FULL-TEXT PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 19a0092p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 18-1534
[Filed May 15, 2019]
_____________________________________________
BILLY F. HAWK, JR., GST NON-EXEMPT MARITAL )
TRUST, Trustee, Transferee, Nancy Sue Hawk )
and Regions Bank, Co-Trustees; ESTATE OF
)
BILLY F. HAWK, JUNIOR, Trustee, Transferee,
)
Nancy Sue Hawk and Regions Bank,
)
Co-Executors; BILLY F. HAWK, JR., GST EXEMPT )
MARITAL TRUST, Trustee, Transferee, Nancy
)
Sue Hawk and Regions Bank, Co-Trustees;
)
NANCY SUE HAWK, Transferee,
)
Petitioners-Appellants,
)
)
v.
)
)
COMMISSIONER OF INTERNAL REVENUE,
)
Respondent-Appellee.
)
____________________________________________ )
Appeal from the United States Tax Court;
Nos. 30024-09; 30025-09; 30026-09;
30515-09—Joseph R. Goeke, Judge.

App. 2
Argued: April 30, 2019
Decided and Filed: May 15, 2019
Before: GUY, SUTTON, and NALBANDIAN,
Circuit Judges.
COUNSEL
ARGUED: J. Eric Butler, LEWIS, THOMASON,
KING, KRIEG & WALDROP, P.C., Knoxville,
Tennessee, for Appellants. Arthur T. Catterall,
UNITED STATES DEPARTMENT OF JUSTICE,
Washington, D.C., for Appellee. ON BRIEF: J. Eric
Butler, Katherine Sanford Goodner, LEWIS,
THOMASON, KING, KRIEG & WALDROP, P.C.,
Knoxville, Tennessee, Ashley Hodges Morgan, LEWIS,
THOMASON, KING, KRIEG & WALDROP, P.C.,
Memphis, Tennessee, David S. Garbett, Brian P. Yates,
GARBETT, ALLEN & ROZA, P.A., Miami, Florida,
John P. Konvalinka, GRANT, KONVALINKA &
HARRISON, P.C., Chattanooga, Tennessee, for
Appellants. Arthur T. Catterall, Gilbert S. Rothenberg,
Richard Caldarone, UNITED STATES DEPARTMENT
OF JUSTICE, Washington, D.C., for Appellee.
_________________
OPINION
_________________
SUTTON, Circuit Judge. After Billy Hawk died in
2000, his wife Nancy Sue decided to sell the family
bowling business, Holiday Bowl. With the help of
lawyers and accountants, she made a deal with
MidCoast, a company that claimed an interest in
acquiring companies with corporate tax liabilities that

App. 3
it could set off against its net-operating losses. Holiday
Bowl first sold its assets—bowling alleys—to Bowl New
England, receiving $4.2 million in cash and generating
about $1 million in federal taxes. After that Nancy Sue
and Billy’s estate sold Holiday Bowl to MidCoast for
about $3.4 million, in essence exchanging one pile of
cash for another minus the tax debt MidCoast agreed
to pay. But MidCoast never paid the taxes. The United
States filed this transferee-liability action against
Nancy Sue Hawk and Billy Hawk’s estate to recover
Holiday Bowl’s unpaid taxes. The Tax Court ruled for
the government, concluding that the Hawks were
transferees of a delinquent taxpayer under federal law
and permitting the government to recover the unpaid
taxes from the Hawks under Tennessee law. We affirm.
I.
When shareholders sell a privately held corporation,
they have a range of options. One is an asset sale, in
which the corporation sells its assets (e.g., the bowling
alleys), pays a tax on the gain, and distributes what’s
left to the shareholders. In this setting, the
Commissioner taxes the corporation upon the sale of
the assets and taxes the shareholders when they
receive their distributions.
Another option is a stock sale, in which the
shareholders sell their stock to a third party. Because
the corporation never sells its assets, the transaction
doesn’t trigger corporate tax, and the original
shareholders pay only their individual income taxes. If
the new owners dispose of the corporate assets down
the road, however, the corporation will incur taxes

App. 4
then. Buyers in a stock sale often pay less to account
for future taxes they must pay.
After Billy Hawk’s death in 2000, Nancy Sue owned
almost a fifth of the company’s stock and her husband’s
estate owned the remainder. Billy and Nancy Sue’ two
sons operated the two bowling alleys awhile. But that
didn’t work. By 2002, she realized she needed to sell
Holiday Bowl. She chose an asset sale to Bowl New
England. The sale left Holiday Bowl with $4.2 million
in cash and left the company owing about $1 million in
federal income taxes and about $200,000 in state taxes.
Holiday Bowl also owned some real property, a family
horse farm that Nancy Sue wanted to keep, valued at
$777,000.
Trying to lower the corporate taxes triggered by the
transaction, the Hawks’ broker approached their
attorney with information about a company called
MidCoast that had “tremendous tax-loss carryforwards.” J.A. 3 at 797. If MidCoast bought Holiday
Bowl, the broker advertised, Holiday Bowl would not
need to pay corporate taxes on the asset sale. As a
result, MidCoast promised to pay the Hawks more than
Holiday Bowl’s actual value—what would have been its
cash on hand minus outstanding taxes. Nancy Sue
Hawk and the estate stood to keep an extra $200,000
to $300,000 by structuring the transaction in this way.
MidCoast purported to offer Holiday Bowl a way to
realize the best attributes of an asset sale (the higher
sale price of the assets) and a stock sale (no corporatelevel tax). In closing his recommendation, the broker,
warily but not warily enough, said: “[I]f it seems too

App. 5
good to be true, it probably is. But maybe this is the
exception.” Id. at 798.
The Hawks proceeded to enjoy what looked like a
free lunch. Under the purchase agreement, the Hawks
sold Holiday Bowl some of their shares in exchange for
the company’s remaining property, the horse farm.
That left Holiday Bowl with nothing but cash.
MidCoast paid $3.4 million plus expenses for Holiday
Bowl’s $4.2 million. To finance the transaction,
MidCoast claimed it would borrow money from a
company called Sequoia Capital. According to
MidCoast, Holiday Bowl would then enter the debtcollection business, rapidly generating new losses that
would offset Holiday Bowl’s existing taxes.
After the sale, MidCoast transferred Holiday Bowl
to Sequoia in exchange for the cancellation of Sequoia’s
loan and about $320,000 in cash. No one ever paid
Holiday Bowl’s outstanding taxes, and the one-time
bowling company dissolved in 2006.
The Internal Revenue Service investigated
MidCoast, uncovering the Holiday Bowl sale and about
sixty similar transactions. That did not end well for
MidCoast, Sequoia, and a law firm, as a grand jury
indicted several individuals associated with each of
them. One defendant pleaded guilty. Others fled the
country. The government launched a civil collection
proceeding against the Hawks in pursuit of Holiday
Bowl’ unpaid taxes. The Tax Court concluded that
Sequoia’s loan to MidCoast was a sham and that
Holiday Bowl had simply distributed cash to the
Hawks, who were liable to the government as Holiday
Bowl’s fraudulent transferees. This appeal followed.

App. 6
II.
To prevent delinquent individuals and corporations
from evading taxes by transferring their assets to other
entities, Congress enacted 26 U.S.C. § 6901. The
statute permits the government to pursue a delinquent
taxpayer’s transferees in federal court. Once there, the
government stands in the position of a private creditor,
and state law determines whether the transferee must
pay the taxpayer’s debts. See Comm’r v. Stern, 357 U.S.
39, 47 (1958).
Two examples illustrate what § 6901 is getting at.
Imagine Company A. It has $5 million in assets that
have a basis (cost) of $1 million. Let’s say Company A
sells its assets (a manufacturing plant) to Company B
for cash. At that point, Company A would owe federal
taxes on the $4 million gain generated by the sale. But
suppose that Company A’s owners decide not to pay
Company A’s taxes. They instead pay themselves
$5 million and simply let Company A go belly-up,
leaving Company A’s taxes unpaid. That leaves a
classic transferee liability for the owners under § 6901.
What happens, however, if the owners try to avoid
that liability with an intermediary transaction? The
owners sell Company A to a foreign Company C for
$5 million—the exact amount of money that Company
A has in the bank. This leaves the owners with
$5 million, and Company C with $5 million in Company
A, and Company A still needing to pay its taxes.
Because Company C is outside the United States, the
government might not be able to pursue Company C as
a transferee when it empties Company A’ coffers and
no one pays A’s taxes. In this setting, a court might

App. 7
decide that the sale of Company A had no economic
substance to it, and that the owners really transferred
Company A’s cash directly to themselves.
Applied here, § 6901 prompts three questions:
(1) Did Holiday Bowl owe any taxes? (2) Are the Hawks
transferees of Holiday Bowl? (3) If so, are the Hawks
liable to the government under Tennessee’s fraudulent
transfer statute? See Stern, 357 U.S. at 41.
1. The Initial Taxpayer. No one disputes that
Holiday Bowl incurred taxes on the sale of its assets.
2. Transferees. The Hawks also amount to
transferees. Section 6901(h) says that transferees
include a “donee, heir, legatee, devisee, and
distributee.” The Hawks do not dispute that Holiday
Bowl transferred the horse farm to them under this
definition. Nor could they. The company “distribute[d]”
the property to the Hawks in exchange for stock.
So too when it comes to the $3.4 million they
received for the Holiday Bowl sale. But this conclusion
contains a complication or two. As the Hawks see it,
they were “distributees” of funds from MidCoast, not
Holiday Bowl. As the government sees it, that
transaction was a sham, as MidCoast simply paid the
Hawks with Holiday Bowl’s money, making them
distributees of funds from Holiday Bowl all the same.
All of this requires a digression about a doctrine, in
truth a series of doctrines, by which courts look to “the
economic realities of the business deal” to determine
whether a transaction occurred as the taxpayer labeled
it. Summa Holdings, Inc. v. Comm’r, 848 F.3d 779, 785
(6th Cir. 2017). While taxpayers are free to arrange

App. 8
their affairs to minimize taxes, they must do so in real
ways—ways that give a transaction economic teeth and
do not merely place tax-avoiding labels on tax-owing
transactions. Gregory v. Helvering, 293 U.S. 465, 469
(1935); Summa Holdings, 848 F.3d at 787. Separating
unlawful tax shelters from lawful tax avoidance is
always context specific and sometimes difficult to pin
down.
The Tax Court permissibly refused to respect
several features of the form that MidCoast and the
Hawks tried to place on this transaction. Start with the
ostensibly independent financing of it: the Sequoia
loan. The Tax Court found that the Hawks didn’t even
get Sequoia’s ostensibly) loaned funds. They got
Holiday Bowl’s own funds, which were wired into an
escrow account and promptly funneled back from the
same escrow account to the Hawks. The quintessential
explanation for refusing to respect the form of a
transaction is that it amounts to a charade. What
purported to be real, a Sequoia loan to MidCoast to
finance the sale, was not in fact real, as MidCoast paid
for the transaction with Holiday Bowl funds.
Even aside from tracing where the dollars and cents
came from and where they eventually went, the
Sequoia loan looked like an impostor on paper. Under
the terms of the deal, Sequoia had no risk because
Holiday Bowl’s own cash served as the collateral for the
loan. The idea was that lenders traditionally require
security for a loan. And this loan looked like it had
security. But an immediately repayable, cash-for-cash
loan backed up by cash is not a traditional loan. Money
is fungible. So is air. By getting a “loan” from Sequoia,

App. 9
MidCoast could access cash, which it then could
immediately pay back with Holiday Bowl’s own
money—in effect using Holiday Bowl’s bank account at
no risk to Sequoia. In this setting, the security was no
security at all.
It gets worse. The parties didn’t sign most of the
loan documents, behavior that does not accord with the
way people usually transfer large pots of money.
Interest and periodic payments are a classic hallmark
of real loans. See Roth Steel Tube Co. v. Comm’r, 800
F.2d 625, 631 (6th Cir. 1986). But Sequoia’s loan
wouldn’t incur interest unless MidCoast defaulted.
While Sequoia did stand to make about $17,250 when
MidCoast paid back the loan, this translated to annual
interest of $6.3 million, nearly double what MidCoast
borrowed. At dusk’s end, Holiday Bowl distributed its
money to the Hawks, in substance if not always in
form, making them the company’s transferees.
The problem by the way is not that the Hawks were
trying to lower their taxes. No American to our
knowledge prefers a higher tax bill. There are other
ways to express fealty to our country. The problem is
that the transaction lacked economic substance; it was
nothing but misleading labels and distracting
forms—trompe l’oeil from start to finish.
Precedent, too, looks askance at what the Hawks
and their advisors did. Over forty years ago, this court
faced a similar transaction, in which a shareholder sold
a business holding only cash and tax liabilities to
buyers who claimed—much like MidCoast—to be able
to reduce the business’s taxes based on existing
business losses. The buyers borrowed the purchase

App. 10
price and immediately liquidated the business. See
Owens v. Comm’r, 568 F.2d 1233, 1236 (6th Cir. 1977).
In concluding that the transaction was a sleight-ofhand distribution to the original shareholder, Owens
noted that “tax liabilities cannot be altered on the basis
of parties exchanging the most fungible commodity of
all, cash.” Id. at 1240. Just so here.
The Seventh Circuit reached a similar conclusion in
a similar setting. The Feldman family owned and
operated Woodside Ranch, an outdoor resort. See
Feldman v. Comm’r, 779 F.3d 448, 450 (7th Cir. 2015).
As here, the Feldmans decided to sell the company’s
assets for cash and incurred large capital gains taxes.
Id. at 451. And as here, MidCoast entered the picture
with a promise to “way more for the shares than they
were worth,” if you simply subtracted the tax owed
from the cash that Woodside Ranch had. Id. When
Woodside never paid its taxes, the government went
after the Feldmans.
The Seventh Circuit concluded that the Woodside
sale was in truth a distribution to the Feldmans. Id. at
456. Some aspects of that case, it is true, made it
easier. MidCoast’s loan in that case “was entirely
undocumented.” Id. In this instance, MidCoast and
Sequoia drew up loan documents, though they never
signed most of them. And in Feldman, MidCoast didn’t
sell the business to the lender; it just immediately
repaid the loan. Id. But the core of Feldman and our
case remains the same: a cash swap that amounts to a
distribution to the shareholders, not a real sale.
Because the Hawks were transferees under § 6901,
the government may pursue them in federal court.

App. 11
That leaves the question of liability under Tennessee
law.
3. Liability Under Tennessee Law. Tennessee has
adopted the Uniform Fraudulent Transfer Act, which
provides remedies to creditors (like the United States)
when insolvent debtors fraudulently transfer assets to
third parties. See Tenn. Code Ann. § 66-3-301 et seq.
The Act treats a transfer as fraudulent “if the debtor
made the transfer . . . without receiving a reasonably
equivalent value in exchange for the transfer . . . and
the debtor was insolvent at that time or the debtor
became insolvent as a result of the transfer.” Id. § 66-3306(a). The law prompts three inquiries of its own: Did
the Holiday Bowl transaction count as a transfer? Did
Holiday Bowl receive reasonably equivalent value in
exchange? Did Holiday Bowl become insolvent?
First, for many of the same reasons the Holiday
Bowl transaction amounts to a transfer to the Hawks
under federal law, it counts as a transfer from Holiday
Bowl to the Hawks under Tennessee law. Tennessee
law defines a transfer broadly to include “very mode,
direct or indirect, absolute or conditional, voluntary or
involuntary, of disposing of or parting with an asset or
an interest in an asset, and includes payment of
money, release, lease, and creation of a lien or other
encumbrance.” Id. § 66-3-302(12). Apt is the word
“indirect.” Even if the Hawks received Sequoia’s money
(which they didn’t), the Hawks still would have
received Holiday Bowl’s funds indirectly.
Tennessee courts also consider the economic
substance of the Holiday Bowl transaction. The
Uniform Fraudulent Transfer Act incorporates

App. 12
traditional “principles of . . . equity.” Id. § 66-3-311.
And Tennessee courts have long relied on shamtransaction principles in settings like this one. See, e.g.,
CAO Holdings, Inc. v. Trost, 333 S.W.3d 73, 88 (Tenn.
2010); M. & M. Stamp Co. v. Harris, 368 S.W.2d 752,
755 (Tenn. 1963). The Tennessee statute also directs
that it “shall be applied and construed to effectuate its
general purpose to make uniform the law with respect
to the subject of this [statute] among states enacting
it.” Tenn. Code Ann. §66-3-312. And other courts have
held that the sham-transaction principles apply to
other States’ Uniform Fraudulent Transfer Acts. See,
e.g., Feldman, 779 F.3d at 459 (interpreting the
Wisconsin statute); In re AFI Holding, Inc., 525 F.3d
700, 708 (9th Cir. 2008) (interpreting the California
statute).
Second, Holiday Bowl didn’t receive reasonably
equivalent value for the horse farm or the cash that the
company transferred to the Hawks. The Act defines
value as “property” transferred or “an antecedent debt
. . . secured.” Tenn. Code Ann. §66-3-304(a). When the
Hawks exchanged stock for the horse farm, the
transaction merely subtracted from Holiday Bowl’s
balance sheet. And Holiday Bowl got nothing when the
Hawks received their $3.4 million.
Third, Holiday Bowl also became insolvent due to
this transaction. After the Hawks received their cash
back, Holiday Bowl had only about two-thirds of the
money that it needed to pay its outstanding taxes.
Nancy Sue Hawk and Billy’s estate resist this
conclusion on several grounds.

App. 13
They say that the Tennessee courts wouldn’t look to
the reality of the transaction to determine what
happened. CAO Holdings, Inc. v. Trost proves
otherwise. 333 S.W.3d 73 (Tenn. 2010). The Tennessee
Supreme Court remanded a case at summary judgment
to determine whether a transaction was a sham. Id. at
88–90. While it’s true that one unpublished Tennessee
Court of Appeals case declared that “[n]o Tennessee
court has applied the economic substance doctrine,” the
petitioners read too much into the comment. Niuklee,
LLC v. Comm’r, Tenn. Dep’t of Revenue, No. M201401644-COA-R3-CV, 2015 WL 6941593, at *7 (Tenn. Ct.
App. Nov. 9, 2015). It’s clear that Tennessee courts
have applied equitable principles to scrutinize the
economic realities of transactions in a variety of
situations.
The Hawks take issue with the Tax Court’s
conclusion that they knew about MidCoast’s fraudulent
scheme. But Tennessee courts look to the economic
realities of the transaction regardless of whether the
Hawks knew about the fraud. When it comes to
constructive fraud, Tennessee’s Uniform Fraudulent
Transfer Act doesn’t require the transferee to know
about the debtor’s misconduct. Instead, transferees
who deal in good faith can offset their liability by
whatever they paid the debtor for the transferred
asset—that is, by whatever money they added to the
pool available to creditors. But acting in good faith
without more doesn’t preclude transferee liability. See
Tenn. Code Ann. § 66-3-309(d).
Some history shows why. The Uniform Fraudulent
Transfer Act replaced an older model statute, which

App. 14
had required that creditors prove transferees received
an asset from a debtor “without a fair consideration.”
Unif. Fraudulent Conveyance Act §4 (Unif. Law
Comm’n 1918). The former Act defined “fair
consideration” as the exchange of property “in good
faith.” Id. § 3. According to official comments to the
new Fraudulent Transfer Act, the drafters of that
statute intentionally replaced the words “fair
consideration” with “reasonably equivalent value” to
eliminate any inquiry into the transferee’s intent when
determining whether a transfer is constructively
fraudulent. See Tenn. Code Ann. §§ 66-3-305 cmt. 2, 663-306 cmt. 1; see also id. § 66-3-313 (directing courts to
the official comments).
Other courts have said that constructive fraud
under the Fraudulent Transfer Act can be established
without determining whether the transferee acted in
good faith. See Feldman, 779 F.3d at 459–60; Weintraut
v. Comm’r, 112 T.C.M. (CCH) 122, 2016 WL 4040793,
at *72 (T.C. 2016); Thompson v. Hanson, 239 P.3d 537,
541 (Wash. 2009); see also Shockley v. Comm’r, 872
F.3d 1235, 1254 n.17 (11th Cir. 2017).
As for cases in which the recharacterization of the
transaction and thus constructive fraud turned on
showing that the transferees knew about the
sketchiness of the tax shelter, they either applied the
Uniform Fraudulent Conveyance Act or relied on cases
that interpreted the older Act. See, e.g., Diebold
Found., Inc. v. Comm’r, 736 F.3d 172, 186 (2d Cir.
2013) (interpreting Uniform Fraudulent Conveyance
Act); Salus Mundi Found. v. Comm’r, 776 F.3d 1010,
1020 (9th Cir. 2014) (following Diebold to interpret the

App. 15
same Uniform Fraudulent Conveyance Act); Starnes v.
Comm’r, 680 F.3d 417, 433 n.10 (4th Cir. 2012)
(imposing a knowledge requirement in a Uniform
Fraudulent Transfer Act case while citing a Fraudulent
Conveyance Act case); see also Frank Sawyer Tr. v.
Comm’r, 712 F.3d 597, 605 (1st Cir. 2013) (applying
state-specific equity law to interpret the Uniform
Fraudulent Transfer Act).
The bottom line? The Hawks’ “extensive emphasis
on their due diligence and lack of knowledge of
illegality” doesn’t shield them from the sham nature of
the transaction and absolve them of transferee liability.
Feldman, 779 F.3d at 460. That’s the same conclusion
the Seventh Circuit reached in Feldman, another
MidCoast case, one that applied Wisconsin law and its
Uniform Fraudulent Transfer Act. Id.
Switching gears, the Hawks claim that Sequoia’s
loan wasn’t a sham, pointing to provisions in the deal
documents that ostensibly prevented the escrow agent
from wiring Holiday Bowl’s cash directly to them. But
one point of the sham-transaction doctrine is to look at
what happened in fact, not what happened on paper.
To similar effect, the Hawks claim that the lack of
signatures on the loan documents did not delegitimate
the loan. That may be true. But that truth does not
take away from the reality that prudent lenders in
traditional transactions normally do not let such
papers go unsigned or the reality that sloppiness often
arises when no risk exists. So it was with this “loan.”
The Hawks claim that MidCoast’s $17,250 payment
to Sequoia constituted a loan fee, proving that there

App. 16
was economic substance to the loan. The better reading
is the one the Tax Court gave: that the fee compensated
Sequoia for participating in the scheme. Even on its
own terms, the loan didn’t generate interest unless
MidCoast defaulted, not a traditional way to calculate
loan interest. A conventional approach to calculating
interest would have made the $17,250 amount usurious
in the extreme—about a 183% annual rate.
The Hawks persist that a series of transactions
shows that Sequoia made a real loan. Over a week
before the Holiday Bowl sale, Sequoia placed $35
million into a separate money market account with the
same escrow agent. The day after the Holiday Bowl
sale, the agent moved much of that money into the
escrow account used for the Holiday Bowl transaction.
The escrow agent then transferred $4 million to a
company called Delta Trading Partners, at the
purported “instructions of Holiday Bowl’s newly
appointed president.” J.A. 3 at 455.
But none of this requires overturning the Tax
Court’s finding that the transaction lacked meat on the
bones. For one thing, the Tax Court found the escrow
agent’s records unreliable, and the Hawks admit that
some of the handwritten ledgers were “incorrect” and
conflicted with typed ledgers. Reply Br. 9. For another,
the Hawks didn’t receive a portion of the $35 million.
As shown above, they received Holiday Bowl’s money in
the escrow account. For still another, even if the
Sequoia loan had occurred, that doesn’t change the
underlying reality of what happened. From an
economic standpoint, Sequoia could have sent the
Hawks Sequoia’s money and then transferred Holiday

App. 17
Bowl’s cash to Delta Trading Partners. Or Sequoia
could have sent the Hawks Holiday Bowl’s funds and
used its own money to pay Delta Trading Partners.
Either way, Sequoia’s “loan” bore no risk, the Hawks
received the same amount, and so did Delta Trading
Partners.
The Hawks take aim at the Tax Court’s conclusion
that this transaction rendered Holiday Bowl insolvent.
They attempt to argue that the escrow agent didn’t
wire Holiday Bowl’s money to them. Escrow accounts
like this one often hold funds for more than one client
at once. The Hawks encourage us to use first-in-firstout accounting and conclude that they received other
clients’ funds unrelated to the Holiday Bowl sale,
leaving much of Holiday Bowl’s money untouched in
the escrow account. Whatever the value of the first-infirst-out accounting method to disentangle
intermingled assets, however, the Tax Court could
identify which deposits and payments corresponded to
the Holiday Bowl transaction. No convincing basis for
overturning that finding has emerged. What’s more,
even if we apply first-in-first-out accounting, the
problem does not go away. If Holiday Bowl benefited
from the transfer of other clients’ money, it would
remain on the hook to the true owners, making Holiday
Bowl insolvent all the same.
Along the same lines, the Hawks point to Sequoia’s
post-sale movement of money into the escrow account
and the $4 million wire to Delta Trading Partners as
indicating that Holiday Bowl controlled $4 million
before Sequoia liquidated the company. But that
assumes Sequoia’s loan to MidCoast (and its other

App. 18
attempts to shift funds) were not shams or devoid of
economic substance. The assumption does not hold.
Last of all, the Hawks point to Alterman v.
Commissioner, a MidCoast case in which the Tax Court
refused to collapse the transaction under Florida’s
Uniform Fraudulent Transfer Act. 110 T.C.M. (CCH)
507, 2015 WL 7753344, at *23 (T.C. 2015). But the Tax
Court in Alterman required the government to prove
that the sellers knew about the fraud based on another
Tax Court decision applying prior Conveyance Act case
law. Id. at *17. That ignored the purpose of
constructive fraud under the Transfer Act: to remove
knowledge from the equation.
***
For those readers still with us, you might wonder:
Was there a way to make this tax-reduction strategy
work? Was it ever possible for MidCoast to offset
Holiday Bowl’s taxes with net operating losses, say by
making the Sequoia loan a kosher one and dotting
another “i” and crossing another “t” in the underlying
transactions? The answer is “maybe” in the abstract
and “not likely” here.
As one treatise puts it, “Congress, with assistance
from the courts, has constructed a formidable defense
against taxpayer efforts to traffic in net operating
losses and other corporate tax benefits.” Boris I. Bittker
& James S. Eustice, Federal Income Taxation of
Corporations and Shareholders § 14.02 (7th ed. 2019).
The Internal Revenue Code prevents a company with
preexisting losses from purchasing a company with preexisting gains and canceling the two out within five

App. 19
years of the sale. See 26 U.S.C. § 384; Bittker &
Eustice, supra, § 14.45.
That’s why MidCoast told the Hawks that it would
operate Holiday Bowl as a debt-collection business and
generate new losses within Holiday Bowl—a different
strategy from the one the broker originally proposed.
For this scheme to eliminate Holiday Bowl’s 2003
taxes, it appears, the new losses needed to arise
between the November 2003 sale and the end of the
year. After hearing the evidence, the Tax Court
concluded that “[i]t was not plausible” that a MidCoastowned Holiday Bowl could ever incur the necessary
“offsetting expenses” in time. J.A. 3 at 481.
That reality and others too separate this case from
Summa Holdings, Inc. v. Commissioner, 848 F.3d 779
(6th Cir. 2017). Those taxpayers sought to take
advantage of two investment vehicles—a “domestic
international sales corporation” and a Roth IRA. The
former allows an exporter to shelter certain income
from corporate tax. Id. at 782. The latter allows
individuals to save limited amounts tax free. Id. at 783.
Done together, a Roth IRA owning shares in a domestic
international sales corporation permits taxpayers to
transfer (and potentially grow) many assets in their
Roth IRAs and spare themselves considerable taxes. Id.
That’s exactly what the Summa Holdings taxpayers
did. Citing the substance-over-form doctrine, however,
the Commissioner claimed authority to ignore the form
of the legislatively approved transactions. We
disagreed because “[the] Internal Revenue Code
allowed” the taxpayers “to do what they did.” Id. at
784. Courts (and agencies) must respect a statute’s

App. 20
text, and the Commissioner’s revision took the
substance-over-form doctrine a “step too far.” Id. at
785. The Commissioner, we acknowledged, may “honor
the fiscal realities of what taxpayers have done over
the form in which they have done it.” Id. But neither
the Commissioner in particular nor the Executive
Branch in general may rewrite “the meaning of
statutes” whenever it dislikes the law. Id.
Think about it. Everyone in Summa Holdings
agreed that the plain terms of the relevant statutes
permitted the transaction. Id. at 784. Not even Chevron
permits government agencies to ignore the plain text of
a statute. Chevron, U.S.A., Inc. v. Nat. Res. Def.
Council, Inc., 467 U.S. 837, 842–43 (1984). What, then,
made the Internal Revenue Service think it could
ignore the plain text of a statute—one that other
agencies could not override under Chevron—under the
substance-over-form doctrine? This version of the
doctrine makes Chevron look like a modest assumption
of executive power. When all was said and done,
Summa Holdings was a case in which the taxpayers
forced the government to play it straight—to make it
respect the form and substance of the laws Congress
wrote.
That leaves two sides to the substance and form
coin. On one side is Summa Holdings. If Congress
authorizes taxpayers to do something—in Summa
Holdings, employing Code-compliant “shell
corporations . . . that have no economic substance”—the
Commissioner can’t override the constitutional forces
of bicameralism and presentment. Summa Holdings,
898 F.3d at 786. On the other side is the Hawks’ case.

App. 21
The government isn’t seeking to ignore the form of the
Code today. It’s enforcing the statutes as written. No
one disputes that Holiday Bowl owed taxes that the
Code imposes. The Code places substantial limits on
even the above-board version of this transaction, limits
that foreclosed MidCoast’s ability to offset Holiday
Bowl’s pre-existing gains. What’s more, § 6901 provides
a mechanism for the government to pursue a
delinquent taxpayer’s assets in cases just like this one.
Tennessee law seeks a similar end. All in all, the
Commissioner isn’t disregarding statutory text in the
name of economic substance; he’s honoring the written
word and the economic realities of this transaction.
We affirm.

App. 22
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 18-1534
[Filed May 15, 2019]
_____________________________________________
BILLY F. HAWK, JR., GST NON-EXEMPT MARITAL )
TRUST, Trustee, Transferee, Nancy Sue Hawk )
and Regions Bank, Co-Trustees; ESTATE OF
)
BILLY F. HAWK, JUNIOR, Trustee, Transferee,
)
Nancy Sue Hawk and Regions Bank,
)
Co-Executors; BILLY F. HAWK, JR., GST EXEMPT )
MARITAL TRUST, Trustee, Transferee, Nancy
)
Sue Hawk and Regions Bank, Co-Trustees;
)
NANCY SUE HAWK, Transferee,
)
Petitioners - Appellants,
)
)
v.
)
)
COMMISSIONER OF INTERNAL REVENUE,
)
Respondent - Appellee.
)
____________________________________________ )
Before: GUY, SUTTON, and NALBANDIAN,
Circuit Judges.
JUDGMENT
On Appeal from the United States Tax Court.
THIS CAUSE was heard on the record from the Tax
Court and was argued by counsel.
IN CONSIDERATION THEREOF, it is ORDERED
that the judgment of the Tax Court is AFFIRMED.

App. 23
ENTERED BY ORDER OF THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

App. 24

APPENDIX B
T.C. Memo. 2017-217
UNITED STATES TAX COURT
Docket Nos. 30024-09, 30025-09,
30026-09, 30515-09.
[Filed November 6, 2017]
_____________________________________________
BILLY F. HAWK, JR., GST NON-EXEMPT
)
MARITAL TRUST, TRUSTEE,
)
TRANSFEREE, NANCY SUE HAWK AND
)
REGIONS BANK, CO-TRUSTEES, ET AL.,1
)
Petitioners
)
)
v.
)
)
COMMISSIONER OF INTERNAL REVENUE, )
Respondent
)
____________________________________________ )
Dale C. Allen, J. Eric Butler, Ashley H. Morgan, and
Katherine S. Goodner, for petitioners in docket
Nos. 30024-09, 30025-09, and 30026-09.

1

Cases of the following petitioners are consolidated herewith:
Estate of Billy F. Hawk, Jr., Trustee, Transferee, Nancy Sue Hawk
and Regions Bank, Co-Executors, docket No. 30025-09; Billy F.
Hawk, Jr., GST Exempt Marital Trust, Trustee, Transferee, Nancy
Sue Hawk and Regions Bank, Co-Trustees, docket No. 30026-09;
and Nancy Sue Hawk, Transferee, docket No. 30515-09.

App. 25
John P. Konvalinka and William L. Konvalinka, for
petitioner in docket No. 30515-09.
Rebecca Dance Harris
McClendon, for respondent.

and

W.

Benjamin

[*2]
MEMORANDUM FINDINGS
OF FACT AND OPINION
GOEKE, Judge: In four statutory notices of liability,
respondent determined that the Estate of Billy F.
Hawk, Jr. (estate), the Billy F. Hawk, Jr., GST Exempt
Marital Trust (exempt trust), the Billy F. Hawk, Jr.,
GST Non-Exempt Marital Trust (nonexempt trust),
and Nancy Sue Hawk (Mrs. Hawk) are liable as
transferees for assessed Federal income tax, a penalty,
and interest of Holiday Bowl, Inc. (Holiday Bowl).2 The
Court has issued two prior opinions in these cases: T.C.
Memo. 2012-154, denying petitioners’ motion for
summary judgment and respondent’s motion to stay
the instant proceedings, and T.C. Memo. 2012-259,
denying petitioners’ motion for reconsideration.
The issue for decision is whether petitioners are
liable as transferees under section 6901 for Holiday
Bowl’s unpaid 2003 Federal income tax, penalty, and

2

For simplicity we refer to Holiday Bowl’s former shareholders,
the estate and Mrs. Hawk, as petitioners. The marital trusts are
successive transferees from the estate.

App. 26
interest.3 We find that petitioners are liable to the
extent set out herein.
[*3] At the time the petitions were filed, Mrs. Hawk
resided in Tennessee.4 Mrs. Hawk and AmSouth Bank
(now Regions Bank) were coexecutors of the estate and
cotrustees of the two marital trusts. At the time the
petitions were filed, Regions Bank had a mailing
address in Tennessee. Mrs. Hawk’s husband, Billy F.
Hawk, Jr., died in February 2000. At the time of his
death, Mr. Hawk owned and managed two bowling
alleys in Tennessee through Holiday Bowl. He had
been in the bowling alley business for approximately 40
years. At the time of the transactions at issue in these
cases, the estate owned 81.25% of Holiday Bowl,
including 100% of the voting stock; Mrs. Hawk owned
the remaining 18.75%.
Respondent’s assertion of transferee liability arises
from a series of transactions involving Holiday Bowl
that occurred after Mr. Hawk’s death. First, Holiday
Bowl sold its primary assets, the two bowling alleys, to
an unrelated third party. Next, Holiday Bowl
distributed unimproved real property to the estate and
Mrs. Hawk in a stock redemption. The same day as the
redemption, the estate and Mrs. Hawk sold their

3

Unless otherwise indicated, all section references are to the
Internal Revenue Code (Code) in effect for the year at issue, and
all Rule references are to the Tax Court Rules of Practice and
Procedure.
4

Some of the facts have been stipulated, and the stipulated facts
are incorporated by this reference. All amounts are rounded to the
nearest dollar.

App. 27
remaining shares to an unrelated third party,
MidCoast Investment, Inc., and its related entities
(collectively MidCoast), a familiar entity in recent
transferee liability cases before this Court (MidCoast
transaction). [*4] MidCoast immediately resold the
stock to yet another third party. The estate
subsequently distributed the proceeds from the
MidCoast transaction to the two marital trusts.
Petitioners saved approximately $300,000 in tax by
engaging in the MidCoast transaction. The tax savings
represent an approximately 15% premium above
Holiday Bowl’s book value. Respondent now seeks to
recover approximately $1.3 million in tax and a penalty
plus interest from petitioners.
I.

Decision To Sell the Bowling Alleys

After her husband’s death, Mrs. Hawk served as
Holiday Bowl’s president and sole director, receiving
compensation of $200,000 in 2002 and $214,000 in
2003. Mrs. Hawk depended on her two sons, William
and Robert, to operate the bowling alleys. She had no
business experience. During her nearly 50-year
marriage, she was a mother and housewife. She had
never helped her husband manage the bowling alleys.
Before Mr. Hawk’s death, neither son had been
involved with the bowling alleys’ management because
of discord within the family. By 2002, two years after
Mr. Hawk’s death, the family disagreed over how to
operate the bowling alleys. Mrs. Hawk decided to sell
them because she did not want to rely on anyone to run
them and lacked the experience to manage them
herself. Mrs. Hawk did not want to sell the bowling
alleys to a family member because of the disagreement

App. 28
within the family. AmSouth Bank [*5] (AmSouth), as
coexecutor of the estate, was not involved in the
decision to sell the bowling alleys, but AmSouth’s trust
officer assigned to the estate agreed with Mrs. Hawk’s
decision to sell because it would diversify the estate’s
holdings. Holiday Bowl relied on Mr. Hawk’s longtime
attorney Wayne Thomas of Chambliss, Bahner, &
Stophel, P.C. (Chambliss Bahner), for advice on the
asset sale. Mr. Thomas also represented the estate in
probate. Chambliss Bahner is one of the largest law
firms in Chattanooga, Tennessee. Holiday Bowl also
retained Dan Johnson of the accounting firm Johnson,
Hickey & Murchinson, P.C. (Johnson Hickey), to assist
with the asset sale.
In November 2002 Mrs. Hawk hired a broker,
Sandy Hansell, who specialized in buying and selling
bowling alleys nationwide. Mr. Hansell’s engagement
letter acknowledged Mrs. Hawk’s instruction not to sell
to a family member. It also specified that the
transaction would be structured as an asset sale. There
was no explanation for the decision to structure the
transaction as an asset sale. Holiday Bowl also owned
two parcels of real property: (1) unimproved real
property on Snow Hill Road in Hamilton County,
Tennessee (Snow Hill Road) that the family used as
part of a horse farm and wanted to retain and (2) a
building leased as a Russell Stover Candy store that
was offered for sale separately from the bowling alleys.
The advisers expected that Holiday Bowl would be
liquidated [*6] after the asset sale; however, no formal
action to liquidate was taken. When Mrs. Hawk
decided to sell the bowling alleys, petitioners and their
advisers did not raise any concerns about the tax

App. 29
implications of the asset sale or seek out any strategies
to reduce Holiday Bowl’s income tax on the gain from
the asset sale.
In December 2002 the Hawks’ son William
instituted legal action in chancery court objecting to
the sale of the bowling alleys because it restricted his
ability to purchase them. He also sought to remove his
mother as coexecutor of the estate. By March 2003
Holiday Bowl had received several offers for the
bowling alleys and had accepted an offer from New
England Bowl, Inc., and Corley Family Realty, L.P.
(Corley family), for $6.2 million. In April 2003 the
chancery court issued an order prohibiting the sale to
the Corley family, finding that Mrs. Hawk had
breached her fiduciary duties by restricting the
potential purchasers. The chancery court held that the
estate could offer the bowling alleys for sale on terms
that did not exclude any potential purchaser but did
not remove Mrs. Hawk as coexecutor. Holiday Bowl
reoffered the bowling alleys for sale in late May 2003
and received four offers, including a second offer from
the Corley family for $6.5 million and a lower offer
from William. In June 2003 Holiday Bowl accepted the
Corley family’s offer, and the asset sale closed on
July 1, 2003. The Corley family also purchased the
Russell Stover Candy store property. [*7] Holiday Bowl
received net proceeds of approximately $4 million,
realized gain of approximately $2.7 million, and owed
approximately $1 million in Federal income tax. After
the asset sale, Holiday Bowl’s assets consisted of cash,
prepaid taxes, and Snow Hill Road. It had no operating
assets and ceased to engage in any business activity.

App. 30
II.

MidCoast Proposal To Purchase Holiday Bowl
Stock

Petitioners first learned about MidCoast from Mr.
Hansell in March 2003 shortly after Holiday Bowl had
accepted the Corley family’s first purchase offer. Mr.
Hansell presented petitioners’ advisers with the idea of
selling Holiday Bowl’s stock to MidCoast after the asset
sale as an alternative to a liquidating distribution of
the sale proceeds. Mr. Hansell is unrelated to
petitioners’ attorneys and accountants. Mr. Hansell
explained that MidCoast would pay a premium for the
stock because it would use loss carryforwards from its
assets recovery business to avoid the gain realized on
the asset sale and would pass a portion of the tax
saving on to petitioners. He admitted that he did not
fully understand MidCoast’s tax strategy and wrote: “I
know the old adage that, if it seems too good to be true,
it probably is. But maybe this is the exception.” At that
time none of Holiday Bowl’s attorneys or accountants
had heard of MidCoast. Petitioners had not previously
sought out a tax strategy to minimize their tax from
the asset sale and [*8] had not considered selling their
Holiday Bowl stock to MidCoast or any other entity.
AmSouth’s trust officer initially did not want to pursue
the MidCoast proposal but believed he had a fiduciary
duty to have Mr. Thomas investigate the proposal as it
could provide a financial benefit to the estate. Mr.
Hansell had learned about MidCoast in 2001, two years
before the asset sale, from a MidCoast acquisition
representative, Graham Paul Wellington, who had
identified Mr. Hansell as being in a position to identify
potential target corporations. MidCoast had offered Mr.
Hansell a referral fee for finding target corporations

App. 31
that fit MidCoast’s business model, i.e., a corporation
that held cash and had realized taxable gain from an
asset sale. Holiday Bowl was Mr. Hansell’s first and
only referral to MidCoast.
III.

MidCoast Representations to Petitioners and
Their Advisers

In March 2003 Mr. Wellington contacted Holiday
Bowl’s accountant, Mr. Johnson, to express MidCoast’s
interest in purchasing Holiday Bowl stock. Mr.
Wellington sent promotional materials to Mr. Johnson,
who shared them with Mr. Thomas. The materials
identified MidCoast as interested in purchasing the
stock of corporations that had sold their assets and had
taxable gain and proposed a stock sale to MidCoast as
an alternative to the target’s liquidation to maximize
the target shareholders’ after-tax proceeds. In the
materials, MidCoast represented [*9] that it had been
in the financial services business since 1958 and in the
asset recovery business since 1996 and was among the
top 25 largest purchasers of delinquent consumer
receivables in the United States. The materials
described the typical aspects of a target corporation: a
company wants to sell its business, a potential thirdparty purchaser wants to purchase the company’s
assets and not the stock, and the asset sale triggers
gain. The materials also listed benefits of engaging in
a transaction with MidCoast: the shareholders
maximize after-tax profit, the target is not dissolved,
liquidated, or consolidated, the target enters the asset
recovery business and operates on a go-forward basis,
and MidCoast causes the target to satisfy any tax
liability due. MidCoast also provided sample

App. 32
computations that compared the tax advantages of a
stock sale to MidCoast versus a corporate liquidation,
labeling the tax saving an “asset recovery premium”.
A. M i d C o a s t
Accountants

C o m m u n i c a t i o ns

With

After his initial discussion with Mr. Wellington, Mr.
Johnson asked Rayleen Colletti, a certified public
accountant with 20 years’ experience, to assume
primary responsibility at Johnson Hickey for assisting
with the MidCoast proposal. In May 2003, before the
sale of the bowling alleys closed, Ms. Colletti began
communicating with Mr. Wellington regarding
MidCoast’s possible purchase of Holiday Bowl stock.
Ms. Colletti questioned MidCoast’s business [*10]
model and postclosing activities. MidCoast represented
that it had an asset recovery business in which it
bought delinquent credit card debt and other
receivables and attempted to collect on those debts. Mr.
Wellington represented that MidCoast acquired
corporations with cash assets to develop its asset
recovery business and the target is not dissolved after
the stock purchase. He explained that by using cost
recovery accounting, MidCoast could frontload
expenses incurred in its asset recovery business
(including skip tracing, collection expenses, and
uncollectible debt writeoffs) during the first 18 to 24
months of operations to offset Holiday Bowl’s taxable
gain and thereafter the business would begin to
generate income. MidCoast provided its acquisition
representatives with a list of talking points for
discussions with potential target corporations that
corresponded with Mr. Wellington’s representations,

App. 33
including that MidCoast acquired targets to develop its
asset recovery business, each transaction was a standalone acquisition, the targets would continue in
existence after the acquisition, and MidCoast had
sufficient capital to satisfy the target’s tax liability.
Ms. Colletti researched loss or shell corporation
rules applicable to tax-avoidance transactions but did
not conduct any research on listed transactions.
Handwritten notes from Johnson Hickey identify
“downsides” to the MidCoast transaction including
“headaches and griefs”, “pursuit by the IRS”,
“substance [*11] over form”, “no control on payment of
tax”, and “technically responsible-- ‘have IRS’ go after.”
She did not request documentation from MidCoast of
its postclosing business plan or business model, did not
request documentation to substantiate MidCoast’s
claim that it could offset gain with losses from an asset
recovery business, and did not independently verify
MidCoast’s representations of its business model. She
conducted internet research on MidCoast with the
secretary of state and the Better Business Bureau.5 In
late May 2003 Ms. Colletti provided MidCoast with
Holiday Bowl’s balance sheet and a pro forma tax
return for its 2003 income tax. She calculated
petitioners’ potential tax saving from the MidCoast
transaction using three different premium percentages
(10%, 12% and 15% premiums) and shared this
information with Chambliss Bahner.

5

It is not clear which State’s records Ms. Colletti researched.
MidCoast was incorporated in the State of Florida.

App. 34
B. MidCoast Communications With Attorneys
Petitioners sought legal advice on the MidCoast
transaction from Mr. Thomas. Mr. Thomas had limited
experience with corporate transactions during his nearly
30-year legal career and sought assistance from other
attorneys at Chambliss Bahner, including Kirk Snouffer,
a tax attorney, and Mark Turner, a transactional
attorney. Mr. Snouffer passed away in March 2008 before
these [*12] cases began. AmSouth did not participate in
the negotiations with MidCoast. Throughout the entire
process, AmSouth relied on petitioners’ accountants and
attorneys for advice on the tax consequences of the
MidCoast transaction. On the basis of discussions with
petitioners’ advisers, AmSouth’s trust officer understood
that MidCoast would use expenses from its asset recovery
business to defer Holiday Bowl’s 2003 tax to future years
and MidCoast would cause Holiday Bowl not to pay
income tax for 2003.
IV.

MidCoast Letter of Intent

In June 2003 MidCoast presented a letter of intent
to purchase Holiday Bowl stock for a price equal to
Holiday Bowl’s cash less 64.25% of its estimated 2003
tax liability. The final stock purchase agreement used
this same price formula. In conjunction with the letter
of intent, MidCoast provided a computation that
petitioners would receive a $454,396 premium above
Holiday Bowl’s book value from the MidCoast
transaction, resulting from tax saving on both the asset
sale and the stock redemption. Ms. Colletti determined
that petitioners would receive an after-tax benefit from
the MidCoast transaction of $386,237, taking into
account capital gains tax that petitioners would pay on

App. 35
the $454,396 premium. The letter of intent indicated
that MidCoast would pay [*13] Holiday Bowl’s 2003
tax to the extent due on the basis of postclosing
business activities.
V. Communications Between
Petitioners’ Advisers

MidCoast

and

Over the next several months, petitioners’ advisers
had several conversations with MidCoast
representatives regarding the MidCoast proposal.
MidCoast representatives explained that MidCoast
would use expenses from its asset recovery business to
offset Holiday Bowl’s gain from the asset sale. At Mr.
Snouffer’s request, MidCoast provided five references.
The references were attorneys with prior experience on
MidCoast transactions. Petitioners’ attorneys
understood that MidCoast’s tax strategy meant that
Holiday Bowl would not pay income tax for 2003. The
attorneys expressed concern that the Internal Revenue
Service (IRS) would challenge MidCoast’s tax strategy
and would assert transferee liability against
petitioners. Mr. Snouffer was aware of and considered
the impact of Notice 2001-16, 2001-1 C.B. 730,
Intermediary Transactions Tax Shelter, relating to
listed transactions involving intermediary
corporations.6 He [*14] reviewed an article concerning

6

In Notice 2001-16, 2001-1 C.B. 730, the IRS announced that it
would challenge the reported tax results of certain intermediary
transactions identified as “listed transactions” that the IRS
considered to be tax shelters. A listed transaction included the sale
of corporate stock to one corporation (the intermediary) and the
sale of assets to a different entity with a motive of avoiding tax on
the long-term gain on the asset sale.

App. 36
IRS pronouncements on intermediary transactions,
Thomas W. Avent & Patricia M. Rubirosa, “Not All
Three-Party Transactions Are Created Equal”, Corp.
Bus. Tax’n Monthly 17 (May 2003), and had a
discussion with Mr. Avent. The article reviewed the
risks of engaging in specific intermediary transactions
and the risks of transferee liability and indicated that
the IRS intended to use substance over form, economic
substance, and other theories against such listed
transactions. The article described a situation similar
to Holiday Bowl’s where the sale of a target’s assets
occurred first and was followed by a sale of the target’s
stock and stated:
In that case, MidCo would have the benefit of
the monies paid by Buyer for some of Target’s
assets, once it acquires Target’s stock. While the
ultimate benefits of such transaction may
resemble those of the MidCo transactions
described above, this type of transaction clearly
fails to satisfy the criteria for the transactions
the IRS has set its sights on in the
pronouncements.
This portion of the article was marked by someone who
read the article. Mr. Avent had worked at KPMG and
was one of the references provided by MidCoast. Mr.
Snouffer knew that KPMG had been an adviser to
MidCoast in similar transactions. The record relating
to Mr. Snouffer’s legal research, analysis, and
conclusions with respect to the MidCoast transaction is
minimal and consists primarily of handwritten notes
and billing records. The billing records indicate he
[*15] researched listed transactions and reviewed IRS

App. 37
announcements, chief counsel advice documents, and
the above-quoted article. He contacted three references;
one reference confirmed that MidCoast closed the
transactions that it started. There is no other evidence
in the record with respect to Mr. Snouffer’s
communications with these references. Nor is there
evidence that petitioners’ advisers contacted any
references with respect to MidCoast’s business
practices or contacted any one in the asset recovery
business about MidCoast.
VI.

Advice From Accountants and Attorneys

In August 2003 petitioners met with their advisers
to discuss the MidCoast transaction. The trust officer’s
notes from this meeting indicate that MidCoast would
“keep shell of corp open for 7 years” and that MidCoast
“has been doing this transaction for 6-7 years”. Mrs.
Hawk requested that the advisers provide their advice
in writing. Both Chambliss Bahner and Johnson
Hickey did so in August 2003 in letters to Mrs. Hawk
and the trust officer.
A. Attorney Advice Letter
Mr. Thomas signed the attorney letter. It stated
that the attorneys had reviewed MidCoast, its history,
and its business plan and practices and had reviewed
Federal tax law. In the letter Mr. Thomas advised that
MidCoast had a profit motive for purchasing Holiday
Bowl stock and planned to operate Holiday [*16] Bowl
for several years. The letter referred to MidCoast’s tax
strategy as a deferral of tax. The attorneys wrote of
MidCoast’s business purpose:

App. 38
In essence, they plan to leverage their profits by
purchasing Holiday Bowl’s cash at a discount
based on its tax liability and then deferring the
actual payment of tax since they have heavy
expenses in the early months after a loan
portfolio purchase. They have more cash
available to purchase loans this way, so they end
up making a greater profit in the end.
The letter stated that MidCoast had engaged in similar
transactions for several years “apparently without
difficulty” with the IRS. It also mentioned MidCoast’s
indemnity for Holiday Bowl’s 2003 Federal income tax.
The attorneys advised that the MidCoast transaction
would be a reasonable exercise of the executors’
discretion if MidCoast provided financial information
to establish its ability to pay the 2003 tax in the event
the IRS challenged MidCoast’s tax strategy. The letter
did not address or analyze Notice 2001-16, supra.
B. Accountant Advice Letter
Ms. Colletti initially drafted the accountant letter;
it was signed by Mr. Johnson. The accountant letter
described the stock redemption and MidCoast
transaction and provided specific advice concerning the
redemption and the distribution of Snow Hill Road. In
the letter the accountants advised distributing Snow
Hill Road as a partial redemption followed by a stock
sale to MidCoast, [*17] characterizing the two events
as a complete liquidation of petitioners’ interests in
Holiday Bowl because of concerns with State tax. With
respect to the MidCoast transaction, the accountants
indicated concern that the IRS could challenge the

App. 39
MidCoast transaction as a tax-avoidance strategy,
stating:
Since MidCoast will be paying a premium based
on the net asset value, the potential area of
concern is the assertion by the IRS that the
subsequent expenses are disallowable under the
“shell” or “loss” corporation rules. The “shell”
corporation rule provides for the disallowance of
deductions and other tax benefits when tax
avoidance is the principal purpose of acquisition
of control of a corporation. If the IRS is
successful in this assertion, the corporation
would not be eligible to reduce its preacquisition tax liability with subsequent losses
generated after acquisition by MidCoast.
However, it is our understanding * * * the prior
shareholders (the Hawks) are indemnified
against any subsequent assessments made by
the IRS or other taxing authorities.
The letter indicated that the indemnity “secured a
minimal level of risk” to petitioners. In the letter, the
accountants stated that MidCoast had a “clear business
purpose and profit motive” for acquiring Holiday Bowl,
briefly described MidCoast’s plan to generate net
operating losses, and concluded that the tax strategy
“can be supported upon scrutiny by the IRS”.
C. Parent Guaranty
After the two letters, petitioners’ attorneys
attempted, without success, to obtain financial
information from MidCoast to ensure that it had
sufficient capital [*18] to pay Holiday Bowl’s tax if its

App. 40
tax strategy failed. Instead, they negotiated a guaranty
from the MidCoast entities’ parent corporation (parent
guaranty) for Holiday Bowl’s 2003 tax. They
downplayed MidCoast’s refusal to provide financial
information as a typical policy of privately held
companies such as MidCoast. They believed that the
parent guaranty provided adequate protection to
petitioners against transferee liability for Holiday
Bowl’s 2003 tax if MidCoast’s tax strategy did not
work. Petitioners did not obtain any financial
information from the parent, however.
D. Second Attorney Advice Letter
Chambliss Bahner issued a second letter, dated
September 8, 2003, addressing MidCoast’s refusal to
provide financial information. The second attorney
letter stated:
[T]he transaction is not one which under current
law would allow the Internal Revenue Service to
assess income tax against the selling
shareholders.
If despite this conclusion, the Internal Revenue
Service should find a way to impose such a tax
on the selling shareholders, the indemnity of
MidCoast Credit Corp. is the second line of
defense for the shareholders.
Mr. Thomas discussed his legal advice in a telephone
call with Mrs. Hawk and AmSouth’s trust officer
following the second letter. He reiterated that while the
[*19] possibility that petitioners would be held liable as
transferees was remote, there was no guaranty that
they would not be. The second letter did not address

App. 41
Notice 2001-16, supra. Mrs. Hawk indicated that she
understood there were no guaranties and believed that
the attorneys had done their “homework”. On the basis
of this advice, Mrs. Hawk decided to proceed with the
MidCoast transaction. However, from her testimony it
is clear that she did not understand MidCoast’s
business plan or stated tax strategy.
VII.

Share Purchase Agreement

Throughout the months of September through
November 2003, Holiday Bowl’s attorneys
communicated with MidCoast’s counsel regarding due
diligence of Holiday Bowl and closing procedures. On
November 12, 2003, petitioners entered into a share
purchase agreement with MidCoast for the Holiday
Bowl stock for $3,423,679. The purchase price was
calculated using the amount of Holiday Bowl’s cash and
prepaid tax deposits reduced by 64.25% of its estimated
2003 Federal, State, and local tax liability.7 MidCoast
also agreed to reimburse petitioners for legal and
accounting fees up to $25,000. At closing petitioners
[*20] received $3.45 million.8 Ms. Colletti calculated
the estimated taxes used in the share purchase
agreement at $1,232,203, referred to as the “Deferred

7

The share purchase agreement calculated the $3,423,679
purchase price as follows: cash of $4,185,389 plus prepaid deposits
of $29,980 less tax liability of $791,690.
8

After the closing, petitioners returned $1,321 to the escrow agent
because of an overpayment, and petitioners received a net
$3,448,679 in purchase price and fee reimbursement.

App. 42
Tax Liability”.9 The tax liability resulted from both the
gain on the asset sale and the gain on the stock
redemption.
MidCoast acquired the Holiday Bowl stock as
follows: 75% to MidCoast Credit Corp. and 25% to
MidCoast Acquisition Corp. The share purchase
agreement provided that MidCoast would prepare and
file Holiday Bowl’s 2003 tax return and would pay
Holiday Bowl’s 2003 tax to the extent any portion was
“due to post-closing business activities”. It did not
contain any representations or covenants with respect
to representations made by MidCoast or contained in
its promotional materials such as using bad debt
deductions from an asset recovery business to offset
Holiday Bowl’s tax, reengineering Holiday Bowl into an
asset recovery business, or continuing Holiday Bowl as
a going concern.
[*21] VIII.

Sequoia Loans

On November 12, 2003, the same day as the
MidCoast transaction, MidCoast entered into two
demand credit agreements with Sequoia Capital, LLC
(Sequoia), an offshore entity, to borrow $3.45 million
and agreed to repay $3,467,250 on demand.10 The
parties noted the $17,250 difference between the
9

The “Deferred Tax Liability” included $1,017,596 in Federal taxes
and $214,607 in Tennessee franchise and excise taxes.
10

MidCoast Acquisition Corp. and MidCoast Credit Corp. each
entered into separate demand credit agreements with Sequoia.
MidCoast Acquisition borrowed $862,500 and agreed to repay
$866,813; MidCoast Credit borrowed $2,587,500 and agreed to
repay $2,600,438.

App. 43
amounts advanced and the amounts repayable as a .5%
loan fee. The loans accrued interest charges only upon
default. The parties did not execute demand notes or
subsidiary guaranties attached as schedules to the loan
agreements. They executed security agreements
granting Sequoia a security interest in Holiday Bowl’s
cash. The record contains an executed copy of one
security agreement. The loans were repayable upon
demand by the lender. Ultimately, MidCoast borrowed
and repaid the loans on the same day through a credit
on the resale of Holiday Bowl to Sequoia. Mr. Thomas
understood that MidCoast would finance the purchase
of the Holiday Bowl stock with a loan from an offshore
entity.
[*22] IX. Escrow Agreements
The share purchase agreement required Holiday
Bowl to deposit its cash into escrow immediately before
closing. A prior draft of the share purchase agreement
provided for Holiday Bowl to deposit its cash with its
own law firm and at closing MidCoast would deliver
the purchase price to petitioners simultaneously with
Holiday Bowl’s deliverance of its cash to MidCoast via
a cashier’s check or certified check from Chambliss
Bahner. The parties revised the share purchase
agreement to require Holiday Bowl to escrow its cash
with an escrow agent chosen by MidCoast. Morris
Manning & Martin, LLP (Morris Manning), acted as
the escrow agent. MidCoast was not a party to the
escrow agreement. The escrow agreement required
Holiday Bowl to deposit its cash in escrow upon
execution of the escrow agreement, which in effect was
immediately before closing of the MidCoast

App. 44
transaction. The stated purpose of the escrow was for
Holiday Bowl’s cash to become postclosing security for
the Sequoia loans. Petitioners’ transactional attorney
Mr. Turner inserted a provision in the escrow
agreement that it was the parties’ intention that the
escrow agent not release Holiday Bowl’s escrow funds
to MidCoast or Sequoia until petitioners received the
purchase price.
The share purchase and escrow agreements did not
require Sequoia or MidCoast to deposit the purchase
price into escrow; rather it required MidCoast or [*23]
its lender to wire the purchase price to petitioners.
When negotiating the escrow and share purchase
agreements, Mr. Turner raised concerns about whether
MidCoast was putting money into the deal. On
October 26, 2003, Mr. Turner commented in an email
to Mr. Thomas and Mr. Snouffer: “[O]ur firm is
required to open up a trust account into which the
closing proceeds will be deposited. I take it that at
closing we will disburse the purchase price to our
clients out of that account and that the remainder will
be disbursed to the purchaser.”
X.

Distribution of Holiday Bowl Funds and
Purchase Price

Pursuant to the escrow agreement, Holiday Bowl
deposited its cash of approximately $4.2 million into
the escrow agent’s trust account (trust account).
Approximately five minutes later, the escrow agent
transferred $3.45 million as the purchase price and fee
reimbursement from the trust account to petitioners
through Chambliss Bahner. Absent the Holiday Bowl
funds, the trust account did not have sufficient cash to

App. 45
pay the purchase price. At the time of the MidCoast
transaction, the escrow agent also held funds for
Sequoia in a client escrow account (client account)
separate from the trust account in excess of the amount
of the purchase price. On the day after the MidCoast
transaction, the escrow agent transferred $31 million
of the funds held for Sequoia from the client account to
the trust account. Chambliss Bahner subsequently
wired a portion of the purchase [*24] price to the estate
and Mrs. Hawk. Chambliss Bahner reserved $100,000
of the purchase price; $41,062 was credited against
petitioners’ legal fees and expenses including fees not
covered by the fee reimbursement. The legal fees were
allocated $7,699 to Mrs. Hawk and $33,363 to the
estate. Chambliss Bahner distributed the remainder of
the reserved funds to the estate and Mrs. Hawk. In
total Mrs. Hawk received $608,640 from the MidCoast
transaction, and the estate received $2,840,661.
At closing the escrow agent also transferred $80,057
and $240,170 to the MidCoast entities from the trust
account. Two days later, the escrow agent transferred
$192,452 to a newly opened bank account in the name
“MidCoast Credit Corp. FBO Holiday Bowl Inc.” Five
days after closing, the escrow agent transferred
$3,990,000 from the trust account to an offshore
account in the name of Delta Trading Partners, LLC
(Delta Trading account), pursuant to the instructions
of Holiday Bowl’s newly appointed president.
XI.

Escrow Agent’s Account Ledgers

On November 3, 2003, before closing, the trust
account received a deposit of approximately $35 million
that the escrow agent transferred into the client

App. 46
account that same day. The escrow agent recorded the
deposit as attributable to Sequoia Capital/General in
its account ledger. The Sequoia Capital/General [*25]
account ledger also recorded the payment of the
$3.45 million purchase price and the two transfers to
the MidCoast entities that occurred on the closing date.
The escrow agent maintained a separate account ledger
in the name of Sequoia Capital & Affiliates that
recorded receipt of Holiday Bowl’s escrowed cash, the
$192,452 transfer to the newly opened bank account,
and the $3,990,000 transfer to the Delta Trading
account. The escrow agent’s ledgers contain dates that
are inconsistent with bank records, including
inconsistencies with respect to entities not related to
these cases.
XII.

Sequoia Purchase of Holiday Bowl

On the same day it purchased the Holiday Bowl
stock, MidCoast resold the stock to Sequoia for a
slightly higher purchase price. Sequoia paid for the
Holiday Bowl stock through a credit against the
Sequoia loans. Petitioners and their advisers were not
aware of MidCoast’s plan to immediately resell the
Holiday Bowl stock to Sequoia. Neither Sequoia or
MidCoast placed Holiday Bowl into an asset recovery
business.
XIII. Redemption of Snow Hill Road
At the time of Mr. Hawk’s death, Holiday Bowl
owned unimproved real property, Snow Hill Road,
valued at $770,000. The Hawk family wanted to retain
Snow Hill Road and had not offered it for sale with the
bowling alleys. Ms. [*26] Colletti recommended that

App. 47
Holiday Bowl distribute Snow Hill Road through a
partial stock redemption to occur on the same day as
the MidCoast transaction. The share purchase
agreement acknowledged the redemption. Ms. Colletti
had asked Mr. Wellington for advice regarding the
distribution of Snow Hill Road, and he referred her to
two revenue rulings and a court case. Ms. Colletti
advised that petitioners treat the redemption as part of
an overall plan of a complete corporate liquidation to
avoid unfavorable State tax consequences. She advised
that there was no Federal tax impact from distributing
Snow Hill Road as a redemption versus a dividend. She
further advised that petitioners distribute Snow Hill
Road in a liquidating distribution, not a stock
redemption, if the parties did not engage in the
MidCoast transaction.
On November 12, 2003, Holiday Bowl redeemed a
total of 2,770 shares in exchange for Snow Hill Road,
including 692 class A voting shares and 1,559 class B
nonvoting shares from the estate and 519 class B
nonvoting shares from Mrs. Hawk, and a nominal
amount of cash in lieu of fractional shares. On the basis
of their respective ownership interests, Mrs. Hawk and
the estate received real property valued at $144,375
and $625,625, respectively, in the stock redemption,
plus the nominal cash. The redemption did not affect
the ownership percentages of Holiday Bowl. Holiday
Bowl realized gain on the distribution of [*27] Snow
Hill Road of approximately $368,000 and incurred
$141,000 in Federal income tax. MidCoast assumed
this tax liability in the share purchase agreement.
After the stock redemption, Holiday Bowl’s assets
consisted solely of cash and prepaid tax deposits.

App. 48
Holiday Bowl reported the stock redemption on its 2003
return as a sale of appreciated property with a sale
price of $770,000.
XIV. Successive Transfers to Marital Trusts
In total Mrs. Hawk received $753,015 in the
MidCoast transaction and redemption. The estate
received $3,466,286. On November 18, 2003, the estate
transferred $1,912,665 to the nonexempt trust and
$511, 976 to the exempt trust from the proceeds.
XV.

Holiday Bowl Tax Returns

Holiday Bowl filed its corporate income tax return
for 2003, reporting no tax liability. Holiday Bowl
reported ordinary and capital gain from the asset sale
and stock redemption and deducted losses generated
through transactions described as interest rate swap
options and DKK/USD binary options sufficient to
offset the reported gain. Petitioners and their advisers
were not involved in preparing or reviewing Holiday
Bowl’s 2003 return. Holiday Bowl filed returns for 2004
and 2005 and marked the 2005 return as its final
return. In 2004 Holiday Bowl organized as a Nevada
corporation and dissolved its Tennessee corporate [*28]
status. The State of Nevada revoked Holiday Bowl’s
corporate status in July 2006. Respondent filed notices
of tax lien against Holiday Bowl in Tennessee and
Nevada.
XVI. Examination of Holiday Bowl Returns
In 2005 the IRS began an examination of MidCoast
relating to transactions it promoted from 2000 through
2004 and identified MidCoast’s acquisition of Holiday

App. 49
Bowl as part of that examination. Respondent issued a
notice of deficiency to Holiday Bowl for 2003, 2004, and
2005, dated July 11, 2007.11 Respondent determined an
income tax deficiency for Holiday Bowl’s 2003 tax year
of $965,358 and an accuracy-related penalty under
section 6662 of $378,107. Holiday Bowl did not file a
petition to challenge the notice. The 2003 deficiency
determination resulted primarily from the disallowance
of loss deductions relating to the disposition of the
interest rate swap options and offsetting DKK/USD
binary options executed after the MidCoast
transaction. In December 2007 respondent assessed tax
and a penalty against Holiday Bowl for 2003 as
determined in the notice of deficiency, plus interest.
Holiday Bowl has not paid any portion of the [*29]
assessment. Respondent investigated Holiday Bowl’s
financial status and determined that it did not have
assets to pay the deficiency.
The IRS assigned the Holiday Bowl case to a
revenue officer in October 2006 to determine collection
potential against Holiday Bowl and Mrs. Hawk. The
revenue officer issued a report on the collection
potential for Mrs. Hawk in December 2006, referring to
Mrs. Hawk’s transferee liability in error, and for
Holiday Bowl in February 2007. Both reports were
completed before respondent issued the 2003 notice of
deficiency to Holiday Bowl and before he assessed tax
against Holiday Bowl for 2003. The revenue officer did

11

Respondent has not asserted transferee liability against
petitioners for 2004 and 2005. The deficiencies in those years were
$599 and $2, respectively.

App. 50
not investigate collection potential with respect to
Sequoia or MidCoast.
In September 2009 respondent issued the four
statutory notices of liability at issue here, determining
that petitioners are liable as initial and/or successive
transferees for Holiday Bowl’s 2003 unpaid tax and
section 6662 penalty. The notices assert that the estate
and the exempt trust are liable for the full amount of
Holiday Bowl’s 2003 tax, penalty, and interest and
assert that the nonexempt trust and Mrs. Hawk are
liable for $511,976 and $734,396, respectively, of the
deficiency and penalty, plus interest. [*30]
OPINION
Section 6901(a)(1) addresses transferee liability and
provides that the Commissioner may proceed against
a transferee of property to assess and collect Federal
income tax, penalties, and interest owed by the
transferor. Section 6901(a) does not create or define a
substantive liability but merely provides a procedural
mechanism for the Commissioner to collect the
transferor’s existing unpaid tax liability. Coca-Cola
Bottling Co. v. Commissioner, 334 F.2d 875, 877 (9th
Cir. 1964), aff’g 37 T.C. 1006 (1962); Mysse v.
Commissioner, 57 T.C. 680, 700-701 (1972); Kreps v.
Commissioner, 42 T.C. 660, 670 (1964), aff’d, 351 F.2d
1 (2d Cir. 1965). The Commissioner may collect unpaid
taxes of a transferor from either an initial transferee or
a successive transferee. Sec. 6901(a), (c)(2);
Commissioner v. Stern, 357 U.S. 39, 42 (1958);
Stansbury v. Commissioner, 104 T.C. 486, 489 (1995),
aff’d, 102 F.3d 1088 (10th Cir. 1996).

App. 51
Under section 6901(a) the Commissioner may
establish transferee liability if an independent basis
exists under applicable State law or equity principles
for holding the transferee liable for the transferor’s
debts. Sec. 6901(a); Commissioner v. Stern, 357 U.S. at
42-47. State law determines the elements of transferee
liability, and section 6901 provides the remedy or
procedure that the Commissioner employs as the
means of enforcing that liability. Ginsberg v. [*31]
Commissioner, 305 F.2d 664, 667 (2d Cir. 1962), aff’g
35 T.C. 1148 (1961). Respondent bears the burden of
proving that petitioners are liable as transferees but
not of proving that the transferor is liable for tax. See
secs. 6902(a), 7454(c); Rule 142(d). To impose
transferee liability, the Court must determine whether
three conditions exist: (1) the taxpayer (transferor) is
liable for the unpaid tax, (2) petitioners are liable as
transferees within the meaning of section 6901, and
(3) petitioners are subject to substantive liability as
transferees under applicable State law or State equity
principles. See Diebold Found., Inc. v. Commissioner,
736 F.3d 172, 183-184 (2d Cir. 2013), vacating and
remanding T.C. Memo. 2010-238; Starnes v.
Commissioner, 680 F.3d 417, 427 (4th Cir. 2012), aff’g
T.C. Memo. 2011-63; Swords Tr. v. Commissioner, 142
T.C. 317, 336 (2014). The determinations of petitioners’
substantive liability under State law and transferee
status under Federal law are separate and independent
determinations. See Feldman v. Commissioner, 779
F.3d 448, 458 (7th Cir. 2015), aff’g T.C. Memo. 2011297; Salus Mundi Found. v. Commissioner, 776 F.3d
1010, 1012 (9th Cir. 2014), rev’g and remanding T.C.
Memo. 2012-61; Sawyer Tr. of May 1992 v.
Commissioner, 712 F.3d 597, 605 (1st Cir. 2013), rev’g

App. 52
and remanding T.C. Memo. 2011-298; Starnes v.
Commissioner, 680 F.3d at 429. We will consider [*32]
whether petitioners are liable as transferees under
State law before determining the application of section
6901.
I.

State Law Liability Requirement

The applicable State law is the law of the State
where the transfer occurred, in these cases Tennessee.
See Commissioner v. Stern, 357 U.S. at 45; Rubenstein
v. Commissioner, 134 T.C. 266, 270 (2010). Tennessee
has adopted the Uniform Fraudulent Transfer Act
(TUFTA), which protects creditors when a debtor
makes a fraudulent transfer. Tenn. Code Ann. sec. 663-301 through sec. 66-3-313 (West 2004). Under
TUFTA a creditor can recover judgment against a
transferee for the value of the property transferred or,
if less, the amount of the creditor’s claim. Id. sec. 66-3309(b).
A. Constructive Fraud Under State Law
TUFTA imposes transferee liability on the basis of
both actual and constructive fraud. See id. sec. 66-3305(a)(1) (actual fraud), secs. 66-3-305(a)(2), 66-3306(a) (constructive fraud). TUFTA provides three
definitions for constructive fraud that apply regardless
of the transferor’s or transferee’s actual intent.
Respondent argues that petitioners are liable as
transferees on the basis of [*33] actual fraud and each
of the three definitions of constructive fraud.12

12

Respondent also argues that petitioners are liable under the
Tennessee trust fund doctrine.

App. 53
Respondent’s primary argument is the constructive
fraud provision applicable to present creditors.
Accordingly, we will address that provision first. A
transfer is fraudulent as to a present creditor if the
debtor did not receive a reasonably equivalent value for
the transfer and the debtor was insolvent at the time of
the transfer or became insolvent as a result of the
transfer. Id. sec. 66-3-306(a). Tennessee courts use a
three-part test to determine whether a constructively
fraudulent transfer has occurred: (1) the claim arose
before the transfer, (2) the debtor did not receive a
reasonably equivalent value, and (3) the debtor was
insolvent or rendered insolvent by the transfer. See
Stoner v. Amburn, 2012 WL 4473306, at *10 (Tenn. Ct.
App. Sept. 28, 2012); Stone v. Smile, 2009 WL 4893563,
at *4 (Tenn. Ct. App. Dec. 18, 2009). This provision
applies regardless of the transferee’s or transferor’s
actual intent. A debtor is insolvent if the sum of its
debts exceeds all of its assets at a fair valuation. Tenn.
Code Ann. sec. 66-3-303(a).
The threshold requirement for liability under
TUFTA is that a transfer has occurred. Accordingly, we
first must determine whether petitioners received a
[*34] transfer from Holiday Bowl under State law.
Next, if we find that petitioners received a transfer, we
must determine whether that transfer was fraudulent
as defined in the constructive or actual fraud provisions
of TUFTA. Respondent contends that petitioners
received two transfers from Holiday Bowl: (1) the stock
in the redemption for Snow Hill Road and (2) a cash
transfer from Holiday Bowl of the $3.45 million
purchase price in the MidCoast transaction as a
disguised liquidating distribution. Petitioners do not

App. 54
dispute that they received Snow Hill Road from
Holiday Bowl but argue that the redemption was not
fraudulent under TUFTA. They do dispute that they
received a transfer from Holiday Bowl in the MidCoast
transaction. They argue that they received the
purchase price from MidCoast through the Sequoia
loans, not from Holiday Bowl. According to petitioners,
a transfer from MidCoast does not subject them to
State fraudulent transfer liability.13 Respondent argues
that we should recharacterize the MidCoast
transaction as a transfer from Holiday Bowl to
petitioners.
[*35] B. Recharacterization of a Transaction Under
State Law
Respondent contends that Tennessee law would
recharacterize the MidCoast transaction as a transfer
from Holiday Bowl under two theories: (1) the Sequoia
loans were shams, and petitioners received Holiday
Bowl cash as payment of the purchase price or (2) the
MidCoast transaction was in substance a disguised
corporate liquidation and petitioners received a $3.45
million liquidating distribution from Holiday Bowl. A
transferee’s substantive liability is determined solely
by reference to State law, and any decision to recast the
MidCoast transaction is made under State law. Salus

13

The Court directed the parties to address on brief whether
petitioners are liable as successive transferees of MidCoast or
Sequoia under the reasoning of Sawyer Tr. of May 1992 v.
Commissioner, 712 F.3d 597 (1st Cir. 2013), rev’g and remanding
T.C. Memo. 2011-298. Respondent failed to address this issue on
brief, and we conclude that he has conceded this basis for
petitioners’ transferee liability.

App. 55
Mundi Found. v. Commissioner, 776 F.3d at 1020; cf.
Shockley v. Commissioner, T.C. Memo. 2015-113
(noting that Wisconsin courts used the substance over
form doctrine in the same manner as Federal courts).
State law governing creditor rights generally applies to
determine the substance of the transaction. Sawyer Tr.
of May 1992 v. Commissioner, 712 F.3d at 605 n.2;
Starnes v. Commissioner, 680 F.3d at 420; Ewart v.
Commissioner, 814 F.2d 321, 324 (6th Cir. 1987). But
see Shockley v. Commissioner, T.C. Memo. 2015-113.
Respondent must establish constructive fraud under
TUFTA using the legal theories available to any
creditor.
Tennessee courts have long recognized equitable
principles that disregard the form of a transaction and
look to its substance. “Equity looks not to the [*36]
outward form, but to the inward substance, of every
transaction.” Bond v. Jackson, 4 Tenn. 189, 191 (1817);
see Still v. Fuller (In re Sw. Equip. Rental, Inc.), 1992
WL 684872, at *14 (E.D. Tenn. July 9, 1992)
(predecessor of Tennessee UFCA at issue); Halco Fin.
Serv., Inc. v. Foster, 770 S.W.2d 554, 555 (Tenn. Ct.
App. 1989);. Respondent cites Tennessee caselaw
predating TUFTA that applies substance over form
principles or treats a transaction as a sham.14 See
Dillard & Coffin Co. v. Smith, 105 Tenn. 372 (1900)

14

TUFTA effectively replaced similar provisions contained in
Tennessee’s Uniform Fraudulent Conveyance Act (TUFCA). See
Paris v. Walker (In re Walker), 2017 WL 1239561 (Bankr. E.D.
Tenn. Apr. 3, 2017). Tennessee first enacted a verison of a uniform
fraudulent conveyance law in 1919. 1919 Tenn. Pub. Acts ch. 125
sec. 2.

App. 56
(holding that the sale of property to a family member
was fraudulent because it was entered into with intent
to defraud creditors); St. John v. Hodges, 68 Tenn. 334
(1878) (setting aside the compromise of debt because of
a lack of authority to enter into the compromise);
Harris v. Smith, 42 Tenn. 306 (1865) (refusing to
enforce a fraudulent contract); Bond v. Jackson, 4
Tenn. 189 (1817) (granting equitable relief from a
contract entered into by mutual mistake); Halco Fin.
Serv., Inc. v. Foster, 770 S.W.2d 554 (Tenn. Ct. App.
1989) (disregarding the form of a transaction because
the parties used a lease as the form to avoid usury laws
where the substance of the transaction was a loan);
Warren v. Hinson, 52 S.W. 498 (Tenn. Ct. App. 1899)
(upholding an [*37] assignment of an insurance policy
as not fraudulent). These cases demonstrate the
principles codified in the uniform fraudulent transfer
laws but do not set forth a specific analysis used to
determine whether to disregard the form of a
transaction. Respondent also cites Tennessee tax cases
that considered equitable principles to recharacterize
the transactions at issue. In CAO Holdings, Inc. v.
Trost, 333 S.W.3d 73 (Tenn. 2010), the Tennessee
Supreme Court denied both parties’ summary
judgment motions and reserved for trial the issue of
whether a lease was illusory and entered into for the
purpose of avoiding State sales and use tax. In Odd
Fellows Benevolent & Charitable Ass’n v. City of
Nashville, 173 Tenn. 55 (1938), the Tennessee Supreme
Court disregarded the form of the transaction because
it was used, without substance, to achieve tax-exempt
status. In Rosewood, Inc. v. Garner, 476 S.W.2d 273
(Tenn. Ct. App. 1971), a Tennessee appellate court
rejected the form of a corporation as a tax-exempt

App. 57
entity because the corporation operated for the
member’s financial benefit.
Petitioners argue that we should not rely on
equitable principles such as the economic substance
doctrine because TUFTA does not expressly incorporate
the economic substance doctrine and no Tennessee
court has applied the doctrine in determining
transferee liability under TUFTA. Respondent notes
that the Court of Appeals for the Sixth Circuit treats a
transaction as having economic substance for [*38]
Federal tax purposes only if the transaction has
practical economic effects other than tax consequences
and the taxpayer had a profit motive. Dow Chem. Co.
v. United States, 435 F.3d 594, 599 (6th Cir. 2006). The
economic substance doctrine as defined by the Court of
Appeals for the Sixth Circuit involves a subjective
analysis of the taxpayer’s intent in the second prong.
See Winn-Dixie Stores, Inc. & Subs. v. Commissioner,
113 T.C. 254, 280 (1999), aff’d, 254 F.3d 1313 (11th Cir.
2001). However, if the Court determines that a
transaction is a sham, i.e., lacking economic substance,
the transaction is disregarded for Federal tax purposes
and the subjective inquiry into the taxpayer’s motive is
not made. Dow Chem. Co. v. United States, 435 F.3d at
599; see Owens v. Commissioner, 568 F.2d 1233, 1237
(6th Cir. 1977), aff’g in part, rev’g in part 64 T.C. 1
(1975). Similarly, the substance over form doctrine is
concerned with the parties’ intentions and the economic
realities contemplated by the parties. Groetzinger v.
Commissioner, 87 T.C. 533, 542 (1986).
In Niuklee v. Commissioner, 2015 WL 6941593
(Tenn. Ct. App. Nov. 9, 2015), cited by petitioners, a

App. 58
Tennessee court of appeals considered the statutory
interpretation of a State tax law for an exemption to
State sales tax. The court declined to apply the
economic substance doctrine to the transaction at issue,
stating: “No Tennessee court has applied the economic
substance doctrine.” [*39] Id. at *7. The case involved
the construction of the statutory term “bona fide” sale.
The court found that under the statute a lease made for
a legitimate business purpose other than tax avoidance
and for valuable consideration constitutes a “bona fide”
sale. Id. As the statute was clear, the court did not
consider the economic substance doctrine. Id.
Petitioners argue that we should not rely on the
economic substance doctrine here on the basis of the
reasoning in Niuklee. They argue that TUFTA does not
expressly incorporate the economic substance doctrine,
no Tennessee court has applied the doctrine to TUFTA,
and the Niuklee decision indicates the State’s highest
court would not apply the economic substance doctrine
to these cases.15 They contend that the form of the
MidCoast transaction should be respected--they sold
their stock to MidCoast, received payment from
MidCoast, received nothing from Holiday Bowl in the
stock sale, and are not transferees of Holiday Bowl
with respect to the stock sale. Cf. Nashville Clubhouse
15

A Federal court must follow the decisions of the State’s highest
court when that court has addressed the relevant issue. Meridian
Mut. Ins. Co. v. Kellman, 197 F.3d 1178, 1181 (6th Cir. 1999).
Where no State court has decided the point at issue, a Federal
court must predict or anticipate how that State’s highest court
would rule. Bear Stearns Gov’t Sec. v. Dow Corning Corp. (In re
Dow Corning Corp.), 419 F.3d 543, 549 (6th Cir. 2005); Allstate
Ins. Co. v. Thrifty Rent-A-Car Sys., Inc., 249 F.3d 450, 454 (6th
Cir. 2001).

App. 59
Inn v. Johnson, 27 S.W.3d 542 (Tenn. Ct. App. 2000)
(relying on substance over form principles in sales tax
case).
[*40] We have not found any State court case that
applies judicial doctrines of economic substance,
substance over form, or sham transaction with respect
to transfers governed by TUFTA. The Court of Appeals
for the Sixth Circuit has not considered a case
involving a MidCoast transaction or a similar
intermediary transaction. However, we find that it is
appropriate to consider equitable principles to
determine whether to recast the MidCoast transaction.
TUFTA expressly incorporates equitable principles.
Tenn. Code Ann. sec. 66-3-311. Furthermore, TUFTA
broadly defines the term “transfer” as “every mode,
direct or indirect, absolute or conditional, voluntary or
involuntary, of disposing of or parting with an asset or
an interest in an asset”. Id. sec. 66-3-302(12).
1. Whether the Sequoia Loans Were Shams
Respondent argues that the Sequoia loans were
shams and that MidCoast paid the purchase price
using Holiday Bowl’s cash. He argues that Holiday
Bowl transferred its cash to the escrow agent,
petitioners received the purchase price from Holiday
Bowl’s escrowed funds, and then the escrow agent
distributed the remaining Holiday Bowl funds to
MidCoast as a premium. The escrow agent’s trust
account did not have sufficient funds to pay the
purchase price without Holiday Bowl’s money.

App. 60
[*41] We find that the Sequoia loans were shams.16 We
make this decision irrespective of whether the escrow
agent held Sequoia funds in a separate client account
as petitioners suggest. Assuming Sequoia provided
funds to MidCoast, it did so not as a bona fide lender
but to create the appearance of a loan and to disguise
the true nature of the transaction as a liquidating
distribution. A loan is an extension of credit; the
Sequoia loans were not true extensions of credit. First,
Sequoia and MidCoast failed to execute loan documents
such as demand notes. Second, the loans were extended
and repaid on the same day through a credit on the
resale of Holiday Bowl to Sequoia. The parties
contemplated immediate repayment as the loans were
payable on demand and did not bear interest except
upon default. Third, the loans included a $17,250 loan
fee. As the Sequoia loans remained outstanding for one
day, the $17,250 fee would represent an annual
interest of over $6.2 million, nearly twice the amount
of the Sequoia loans. We find that the loan fee
compensated Sequoia for its participation in the tax
scheme to disguise a liquidating distribution to
petitioners.
Another indication that the Sequoia loans were
shams and not true extensions of credit is that the
parties intended to use Holiday Bowl’s cash to fully
[*42] secure the loans. The escrow agreement required
Holiday Bowl to deposit its cash into escrow before the
stock sale and identified the purpose of the escrow as
security for the Sequoia loans. The escrow agreement
16

For simplicity we use the term “loan” irrespective of our decision
that the Sequoia loans were shams.

App. 61
gave Sequoia control over Holiday Bowl’s cash at
closing. Sequoia did not bear any risk. MidCoast was
not required to escrow the purchase price. By the terms
of the escrow agreement, only Holiday Bowl was
required to infuse capital into the deal. The fact that
petitioners were unaware of MidCoast’s plan to
allegedly resell Holiday Bowl though a credit against
the loans is not significant because petitioners knew
the Holiday Bowl cash secured the Sequoia loans.
MidCoast’s representation that it needed a loan to
purchase a corporation holding only cash and then
would use the cash to purchase delinquent debt should
have caused petitioners’ advisers serious concern. For
these reasons we find that the Sequoia loans were
shams. Sequoia was not a bona fide lender. It joined
the MidCoast transaction to create the form of a loan
and to disguise the liquidating distribution.
Petitioners contend that the Sequoia loans were
funded and point to the escrow agent’s account ledgers.
They argue that even though the purchase price was
paid from the trust account, the escrow agent held the
Sequoia loans in a separate client account. The trust
account lacked sufficient funds to pay the purchase
price unless the escrow agent used Holiday Bowl’s
cash. The parties [*43] stipulated that Sequoia
deposited nearly $35 million with the escrow agent on
November 2, 2003, and the escrow agent retained those
funds on the date of the MidCoast transaction, albeit in
a different account. The record does not establish the
purpose for the $35 million deposit. Petitioners
speculate that the escrow agent held a portion of those
funds to pay the Holiday Bowl purchase price. The
escrow agent recorded the payment of the purchase

App. 62
price on its account ledgers as paid from the $35
million deposit. However, we have found that the
account ledgers are inconsistent and not reliable.
Petitioners also contend that the terms of the share
purchase agreement and the escrow agreement support
a finding that Holiday Bowl cash was not used to pay
the purchase price. As originally drafted, the share
purchase agreement provided for the simultaneous
exchange of money: delivery of Holiday Bowl’s cash to
MidCoast and MidCoast’s payment of the purchase
price. In the final version, however, neither the share
purchase nor the escrow agreement required MidCoast
or Sequoia to deposit funds with the escrow agent.
Revisions to the share purchase agreement allowed
MidCoast to purportedly acquire Holiday Bowl with the
mere appearance of a loan and without an inflow of
cash. The contract terms did not prevent petitioners
from receiving Holiday Bowl’s cash back as payment of
the purchase price. The share purchase agreement
stated that it was [*44] the parties’ intention that
petitioners would receive the purchase price before
Holiday Bowl’s escrowed funds were paid over to
MidCoast. Similarly, the escrow agreement stated that
the escrow agent would not release Holiday Bowl’s
funds to Sequoia or MidCoast until petitioners received
the purchase price. Neither of these provisions
prevented MidCoast from using Holiday Bowl’s cash to
pay the purchase price. Rather, the agreements
required only that the escrow agent pay petitioners
before it paid any excess Holiday Bowl cash over to
MidCoast. Conversely, in Alterman Tr. v.
Commissioner, T.C. Memo. 2015-231, decided in favor
of the transferee, both parties to the stock sale were

App. 63
contractually obligated to deposit funds into escrow. Id.
at *23. The contract in Alterman Tr. also required the
target corporation to maintain a certain net worth. Id.
at *18. The terms of the share purchase agreement and
the escrow agreement do not dissuade us from our
finding that the Sequoia loans were shams. Nor does
the stipulated $35 million deposit. Accordingly, we find
that the Sequoia loans were shams, for the reasons
stated above, and petitioners received a transfer from
Holiday Bowl in the MidCoast transaction. We will
address respondent’s alternative argument for
petitioners’ transferee liability.
[*45]

2. De Facto Liquidation of Holiday Bowl

Respondent alternatively argues that the Court
should recharacterize the MidCoast transaction as a
complete liquidation of Holiday Bowl and a liquidating
distribution to petitioners equal to the purported
purchase price. He argues that the Court should apply
the sham transaction or substance over form doctrine
rather than the standard for collapsing transactions as
this Court and the Courts of Appeals have done in
other transferee liability cases that involve the
Uniform Fraudulent Transfer Act (UFTA) from other
States with provisions similar to TUFTA’s. In other
such UFTA cases, we have collapsed the transactions
at issue where the transferee had actual or
constructive knowledge of the entire scheme that
rendered the transfer fraudulent under State law.
Salus Mundi Found. v. Commissioner, 776 F.3d at 1020
(NY UFCA at issue); Diebold Found., Inc. v.
Commissioner, 736 F.3d at 187 (NY UFCA); Starnes v.
Commissioner, 680 F.3d at 433 (North Carolina UFTA);

App. 64
Slone v. Commissioner, T.C. Memo. 2016-115 (Arizona
UFTA); Alterman Tr. v. Commissioner, T.C. Memo.
2015-231 (Florida UFTA); Tricarichi v. Commissioner,
T.C. Memo. 2015-201 (Ohio UFTA); cf. Feldman v.
Commissioner, 779 F.3d at 459-460 (finding knowledge
of scheme not required under Wisconsin UFTA).
Respondent argues that TUFTA does not require
knowledge of the tax scheme to recharacterize the
transaction as a transfer [*46] subject to TUFTA and
argues, in the alternative, that petitioners had the
requisite knowledge. TUFTA does not require the
transferee to have knowledge of the statutory elements
of constructive fraud, i.e., the transferor’s insolvency or
the lack of reasonably equivalent value. Accordingly,
respondent argues that knowledge of the entire scheme
is not relevant when applying equitable principles to
recharacterize a transaction as a transfer subject to
TUFTA.
TUFTA does not provide any guidance as to
whether it is appropriate to consider a transferee’s
knowledge when applying equitable principles to
recharacterize a transaction as a transfer. Tennessee
caselaw does not set forth a specific test or detailed
analysis that we can use to apply equitable principles
to recast a transaction under TUFTA or to determine
whether knowledge, either actual or constructive, is
required before we recast a transaction for purposes of
TUFTA. We are instructed by cases from other
jurisdictions that have enacted the UFTA. TUFTA
instructs the courts to apply its provisions to effect its
general purpose to make uniform the law among the
States that have enacted the UFTA. Tenn. Code Ann.
sec. 66-3-312. This Court and Courts of Appeals have

App. 65
imposed a knowledge requirement under State law
before applying equitable principles to treat an alleged
transferee as, in substance, having received a transfer
in situations where there was no transfer in form.
Salus Mundi Found. v. Commissioner, 776 [*47] F.3d
at 1020; Diebold Found., Inc. v. Commissioner, 736
F.3d at 187; Starnes v. Commissioner, 680 F.3d at 433;
Slone v. Commissioner, T.C. Memo. 2016-115;
Alterman Tr. v. Commissioner, T.C. Memo. 2015-231;
Tricarichi v. Commissioner, T.C. Memo. 2015-201; cf.
Feldman v. Commissioner, 779 F.3d at 459-460 (finding
knowledge of scheme is not required under Wisconsin
law); Weintraut v. Commissioner, T.C. Memo. 2016-142
(finding knowledge is not required under Indiana law
but also holding that the transferee had knowledge
assuming that State law required such knowledge). As
we find that petitioners’ advisers had sufficient
knowledge for us to recast the MidCoast transaction as
a transfer subject to TUFTA, we do not address
respondent’s argument that such knowledge is not
required under State law.
Assuming knowledge is required to recharacterize
the MidCoast transaction under State law, respondent
must prove that petitioners had actual or constructive
knowledge that MidCoast would cause Holiday Bowl to
fail to pay its 2003 income tax. Constructive knowledge
is either knowledge that ordinary diligence would have
elicited, where the transferee was aware of
circumstances that should have led the transferee to
inquire further into the circumstances of the
transaction, sometimes referred to as inquiry
knowledge, or a more active avoidance of the truth.
Diebold Found., Inc. v. Commissioner, 736 F.3d at 187.

App. 66
We do not decide [*48] which of these definition of
constructive knowledge is appropriate because
petitioners had constructive knowledge under either
standard. Tennessee courts have considered inquiry
notice as a variant of actual notice rather than a type
of constructive notice, or a middle ground between
constructive and actual notice. Blevins v. Johnson
County, 746 S.W.2d 678, 683 (Tenn. 1988). Tennessee
courts define inquiry notice as knowledge of facts and
circumstances sufficient to put a reasonable person on
notice and to charge that person with knowledge of all
the facts and circumstances that a reasonably diligent
and good-faith investigation would disclose. Id.
(considering notice with respect to real property
rights); Eldrige v. Savage, 2012 WL 6757941 (Tenn. Ct.
App. Dec. 28, 2012) (considering notice relating to
running of statute of limitations).
Petitioners knew from the outset that the
underlying purpose of the MidCoast transaction was to
obtain a financial benefit from the nonpayment of
Holiday Bowl’s 2003 income tax. Mr. Hansell
introduced MidCoast as willing to pay a premium over
Holiday Bowl’s book value because MidCoast would not
pay the tax on the gain from the asset sale and would
pass a portion of the saving from the unpaid tax
liability back to petitioners. By that time petitioners
had decided to end their bowling alley business and
planned to liquidate and distribute the proceeds from
an asset sale. Instead of liquidating, they pursued the
MidCoast [*49] transaction to increase their after-tax
proceeds from the asset sale. When the asset sale was
delayed because of family litigation in chancery court,
petitioners were aware of MidCoast’s proposal and

App. 67
their advisers had begun discussions with MidCoast.
Petitioners made the decision to reoffer the bowling
alleys for sale in late May 2003 and to separately
pursue the MidCoast transaction. Petitioners could
have reconsidered the asset sale if their decision had
been based on any purpose other than tax saving. They
chose to engage in both transactions as a tax-avoidance
strategy. From the beginning their advisers should
have known “it seems to good to be true”, as Mr.
Hansell stated in his written correspondence
introducing the MidCoast transaction. There were
numerous red flags that should have raised the
concerns of petitioners’ advisers, including a purchase
price above book value calculated on the basis of tax
saving, the issues with the Sequoia loans discussed
above, Notice 2001-16, supra, and using an interestfree demand loan to purchase a corporation holding
only cash and tax liabilities.
While petitioners claim that MidCoast
misrepresented its business plan and tax strategy,
petitioners’ advisers did not attempt to confirm
MidCoast’s representations. Petitioners’ advisers did
not request any documentation to verify MidCoast’s
representations. They contacted only references who
were advisers involved in prior MidCoast deals who
merely confirmed that MidCoast closed the [*50] deals
it started. They did not contact any references in the
asset recovery business to determine MidCoast’s
reputation or whether MidCoast was in fact engaged in
an asset recovery business. Cf. Slone v. Commissioner,
at *16 (transferees knew MidCoast had a reputation for
“hardball” collection tactics). Petitioners claim they
believed MidCoast would continue Holiday Bowl as a

App. 68
going concern, but the record shows that they
considered Holiday Bowl would exist as a “shell” for
seven years. In addition, MidCoast’s alleged tax
strategy should have raised concerns for petitioners’
advisers, especially in the light of Notice 2001-16,
supra. Petitioners allege that MidCoast represented it
would place Holiday Bowl into an asset recovery
business and would employ a tax strategy to frontload
expenses in the first 18 to 24 months of that business
to offset Holiday Bowl’s taxable gain and to defer
payment of the 2003 tax. Holiday Bowl’s alleged standalone asset recovery business would have existed for
approximately six weeks in 2003 as the MidCoast
transaction closed on November 18, 2003. It was not
plausible on the basis of MidCoast’s purported tax
strategy that Holiday Bowl would incur offsetting
expenses in an asset recovery business by yearend.
Petitioners’ advisers apparently ignored this fact,
however, when they followed MidCoast’s unverified
representations. Petitioners’ advisers should have
known that a six-week asset recovery business would
not generate sufficient losses for [*51] Holiday Bowl to
owe no tax in 2003. We also note that petitioners did
not obtain a legal opinion with respect to MidCoast’s
purported tax strategy to frontload expenses in an
asset recovery business.
Moreover, the share purchase agreement expressly
stated that petitioners could not rely on MidCoast’s
representations made during the negotiation process.
By contrast, the share purchase agreement in
Alterman Tr. contained specific covenants that
MidCoast would not dissolve the target for four years,
MidCoast would reengineer the target into an asset

App. 69
recovery business, the target would invest a certain
dollar amount in delinquent debt and would maintain
a certain net worth for four years, and MidCoast
represented it had a net worth over $10 million, an
amount in excess of the target’s tax liability. Alterman
Tr. v. Commissioner, at *17-*18. Through these
contractual provisions, the selling shareholders in
Alterman Tr. attempted to ensure the target’s tax
would be paid. The transferee in Alterman Tr.
successfully prosecuted a claim against MidCoast on
the basis of the terms of the share purchase agreement.
Id. at *32. Petitioners did not seek to include similar
contractual provisions in the share purchase agreement
in these cases. Rather than obtain this type of
protection for their clients, petitioners’ advisers relied
on the indemnity from MidCoast, the parent guaranty,
and the fact [*52] that MidCoast had previously
engaged in similar transactions. The advisers’ due
diligence is not sufficient to protect petitioners.
Irrespective of MidCoast’s claimed tax strategy, we
find Notice 2001-16, supra, a factor determining that
petitioners should have known that MidCoast did not
have a legitimate strategy to avoid or defer Holiday
Bowl’s 2003 income tax. Petitioners and their advisers
were aware of Notice 2001-16, supra, and knew that
the IRS had identified intermediary transactions
similar to the MidCoast transaction as listed
transactions that the IRS considered abusive tax
shelters. Petitioners should have known that the IRS
would scrutinize the MidCoast transaction on the basis
of Notice 2001-16, supra. The advice letters from
Chambliss Bahner and Johnson Hickey did not
mention Notice 2001-16, supra, or discuss whether the

App. 70
MidCoast transaction was a listed transaction subject
to recent IRS pronouncements. Mr. Snouffer was aware
of Notice 2001-16, supra, and discussed it with the
author of an article that proposed that having the asset
sale occur first was enough of a differentiation from the
listed transactions in the IRS pronouncement. There is
nothing in the record to indicate how Mr. Snouffer
came to the conclusion that Notice 2001-16, supra, did
not apply or whether he in fact came to that conclusion.
Petitioners did not obtain a tax opinion that analyzed
the IRS pronouncement on listed transactions.
Nevertheless petitioners were [*53] concerned with
transferee liability apparently on the basis of Notice
2001-16, supra. Petitioners’ advisers knew there was a
risk that the IRS would challenge MidCoast’s
purported tax strategy and that MidCoast’s purported
tax scheme would not work. The advisers discussed the
transferee liability with petitioners. From the record it
is apparent that the advisers’ legal analysis was
minimal and relied on the fact that MidCoast had
engaged in similar transactions for a number of years
without problems with the IRS.
Petitioners should have known that Holiday Bowl
would be insolvent after the MidCoast transaction.
MidCoast represented that it needed a loan to purchase
a corporation with only cash and then would use the
corporation’s cash to purchase delinquent debt. Using
a loan to purchase cash and tax liability should have
raised serious concerns for petitioners’ advisers.
Holiday Bowl had no operating assets, no employees,
and no business operations. Holiday Bowl decided to
sell its assets and was in the process of winding up its
affairs before petitioners learned of MidCoast. When

App. 71
“one purports to sell cash in corporation solution the
burden is * * * particularly severe on the seller to show
that the only purpose served is not tax avoidance.”
Owens v. Commissioner, 568 F.2d at 1239 (quoting
Owens v. Commissioner, 64 T.C. at 15). Petitioners
knew Holiday Bowl’s cash secured the loans. The
purported loans were payable on demand and [*54] did
not charge interest except in default. Holiday Bowl’s
cash was required as security for the loans but could
not be used to both purchase the delinquent debt for an
asset recovery business and repay the demand loan.
Petitioners knew that Holiday Bowl would not pay
tax for 2003. We find no distinction between the
nonpayment of the income tax in 2003 and the
advisers’ characterization of MidCoast’s stated tax
strategy as a deferral of tax as petitioners knew there
was a likelihood that Holiday Bowl would be insolvent
after 2003 and would exist as a shell. The adviser
letters show that petitioners’ advisers had knowledge
that the result of the entire scheme of the MidCoast
transaction was nonpayment of Holiday Bowl’s 2003
income tax. MidCoast agreed to cause Holiday Bowl to
pay the 2003 income tax only “[t]o the extent any
portion of the Deferred Tax Liability is due to postclosing business activities”. In the letter of intent,
MidCoast had stated it would covenant to cause
Holiday Bowl to pay 2003 tax to the extent due given
Holiday Bowl’s postclosing activities. MidCoast agreed
to pay more than book value for Holiday Bowl stock
because it planned not to pay Holiday Bowl’s 2003
income tax and petitioners knew of the intended
nonpayment. This should have raised serious concerns
for petitioners’ advisers especially in the light of the

App. 72
IRS pronouncements on listed transactions. Petitioners
knew there was a risk of transferee liability, and they
accepted the risk. [*55] The knowledge requirement to
recharacterize a transaction for purposes of transferee
liability protects innocent creditors and purchasers for
value. Diebold Found., Inc. v. Commissioner, 736 F.3d
at 189. Petitioners knew that the MidCoast transaction
was designed to let them avoid the tax due on the asset
sale and to leave only a shell of a corporation without
assets to satisfy its liabilities. Petitioners should have
known through a commonsense examination of
MidCoast’s representations that MidCoast was
purchasing Holiday Bowl’s tax liabilities and would pay
petitioners a premium above book value because
MidCoast would not pay the tax. We find that the
substance of the MidCoast transaction was a disguised
liquidation to petitioners and petitioners knew, or
should have known, that Holiday Bowl would fail to
pay its 2003 tax.
C. Advisers’ Knowledge Imputed to Petitioners
Petitioners argue that the knowledge of an adviser
is not imputed to taxpayers where the taxpayer did not
have the education or experience to understand the tax
implications of the transaction. We agree with
petitioners that Mrs. Hawk did not have a
sophisticated understanding of tax law, had limited
education and business experience, and relied heavily
on the expertise of her advisers, including her
husband’s longtime attorney, whom she trusted. Cf.
Tricarichi v. Commissioner, at *12 (transferee was a
sophisticated businessman [*56] who received advice
that the tax strategy was a “very aggressive tax-

App. 73
motivated” strategy). She had no involvement in
negotiating the terms of the MidCoast transaction or
with assessing the risks associated with it. However,
she understood that Holiday Bowl’s income tax would
not be paid for 2003. While she did not understand the
tax strategy described by MidCoast or the intermediary
structure of the MidCoast transaction, her advisers did.
Similarly, AmSouth Bank, as cotrustee and coexecutor,
relied on Chambliss Bahner and Johnson Hickey,
deferred to Mrs. Hawk’s decisions, and was not
involved in negotiating with MidCoast or assessing the
legitimacy of the MidCoast transaction.
To hold a transferee liable for unpaid tax, courts
have looked to the knowledge of the selling
shareholders’ representatives rather than that of the
shareholders’ See Diebold Found., Inc. v.
Commissioner, 736 F.3d at 188-189; Estate of Marshall
v. Commissioner, T.C. Memo. 2016-119; Alterman Tr.
v. Commissioner, T.C. Memo. 2015-231. In their
argument against imputed knowledge, petitioners cite
Alexander v. Commissioner, T.C. Memo. 2013-203. The
Alexander case involved the 75% penalty for fraud
under section 6663. In Alexander we held that a
taxpayer’s limited understanding of tax laws and
reliance upon his or her attorney is a factor weighing
against the finding of fraudulent intent for purposes of
the 75% penalty. There is no legal basis to extend the
[*57] reasoning of Alexander with respect to imputed
knowledge, as it relates to the fraud penalty, to the
question of whether transferee liability exists.
Moreover, petitioners’ substantive liability for tax as
transferees is determined under State law, not the
Federal tax law at issue in Alexander. Accordingly, we

App. 74
impute the advisers’ knowledge to Mrs. Hawk and the
other petitioners.
D. TUFTA Application to Stock Redemption and
MidCoast Transaction
Petitioners received transfers from Holiday Bowl in
the MidCoast transaction and the stock redemption for
purposes of applying TUFTA. Accordingly, we must
determine whether the transfers were fraudulent
under TUFTA. A transfer is constructively fraudulent
as to present creditors if: (1) the transferor did not
receive reasonably equivalent value in the exchange
and (2) the transferor became insolvent as a result of
the transfer. Tenn. Code Ann. sec. 66-3-306(a).
1. Present Creditor at Time of Transfer
Petitioners argue that the IRS was not a present
creditor at the time of the MidCoast transaction and
stock redemption because Holiday Bowl’s 2003 income
tax did not accrue until the end of the tax year, citing
Hagaman v. Commissioner, 100 T.C. 180 (1993). We
have held that the Commissioner becomes a creditor for
Federal income tax liabilities when taxable gain is
realized. Kreps v. [*58] Commissioner, 42 T.C. at 670671. Gain from the sale of corporate assets arises at the
time the assets were sold; and the IRS claim for income
tax on the gain from the sale of corporate assets arises
at the time of the asset sale. Id; see Feldman v.
Commissioner, 779 F.3d at 457-460 (discussing
Wisconsin’s UFTA). The decision in Hagaman does not
require a different result. The transfers in Hagaman v.
Commissioner, 100 T.C. at 185, occurred after the tax
years at issue. The Court’s holding assumed for

App. 75
purposes of the case that income tax is deemed due and
owing at the end of the year regardless of whether the
tax is assessed. The Court did not consider whether the
IRS may become a creditor at an earlier time. Id. at
185. We have previously held that income tax liability
arising from the sale of corporate assets is a claim
arising at the time of the asset sale. Estate of Marshall
v. Commissioner, T.C. Memo. 2016-119; Cullifer v.
Commissioner, T.C. Memo. 2014-208. Petitioners
further argue the enactment of section 6151 requires us
to reconsider this legal conclusion. Section 6151
establishes that tax is due upon filing of a return. It
defines a payment due date, not the existence of a
claim. Section 6151 is not relevant to determining
whether respondent is a present creditor in these cases.
Income tax liability is a claim as defined by TUFTA.
TUFTA defines the term “claim” broadly as any “right
to payment, whether or not the right is reduced [*59]
to judgment, liquidated, unliquidated, fixed,
contingent, matured, unmatured, disputed, undisputed,
legal, equitable, secured, or unsecured”. Tenn. Code
Ann. sec. 66-3-302(3). A claim includes tax liabilities
arising from an asset sale even if payment is not yet
due. Estate of Marshall v. Commissioner, T.C. Memo.
2016-119.
Holiday Bowl’s 2003 tax liability arose, in
substantial part, from two events: the asset sale and
the stock redemption. Respondent’s claim arose on the
dates of the asset sale, July 1, 2003, and the stock
redemption, November 12, 2003. Respondent became a
creditor on those dates and thus was a present creditor

App. 76
on the date of the MidCoast transaction, November 12,
2003.17
2. Reasonably Equivalent Value
TUFTA does not define the phrase “reasonably
equivalent value”. The Court of Appeals for the Sixth
Circuit has instructed that the Court should first
determine whether the debtor received any value and,
if so, whether the value received was reasonably
equivalent to that of the transferred asset. Stoats v.
Butterworth Props, Inc. (In re Humble), 19 F. App’x
198, 200 (6th Cir. 2001). Whether Holiday Bowl
received reasonably equivalent value is a question of
fact. [*60] See Shockley v. Commissioner, T.C. Memo.
2015-113, aff’d, 872 F.3d 1235 (11th Cir. 2017); Hirsch
v. Steinberg (In re Colonial Realty Co.), 226 B.R. 513,
523 (Bankr. D. Conn. 1998). Value is determined from
the perspective of a creditor. Stoner v. Amburn, 2012
WL 4473306, at *11. The Court of Appeals for the Sixth
Circuit has addressed the meaning of “reasonably
equivalent” as that phrase is used in the Bankruptcy
Code, 11 U.S.C. sec. 548(a)(1)(B)(i). TUFTA is
substantially similar to the relevant parts of the
Bankruptcy Code. See 11 U.S.C. sec. 548(a)(1)(B). The
Bankruptcy Code does not define the phrase. See
Congrove v. McDonald’s Corp. (In re Congrove), 222 F.
App’x 450, 454 (6th Cir. 2007). The Court of Appeals for
the Sixth Circuit Bankruptcy Appellate Panel has

17

Petitioners also received a transfer with respect to the portion of
the purchase price used to pay their attorney’s and accountant’s
fees. See Tenn. Code Ann. sec. 66-3-309(b)(1); Fibel v.
Commissioner, 44 T.C. 647, 658 (1965).

App. 77
stated that value is viewed on the basis of the
consideration received by the debtor and the net effect
of the transfer on the value of the debtor’s estate, i.e.,
the funds available to creditors after the transfer,
rather than the value given by the transferee. Id. The
unsecured creditor should be no worse off. Id. The test
used to determine reasonably equivalent value
compares the value of the property surrendered with
the value of the property received. Corzin v. Fordu (In
re Fordu), 201 F.3d 693, 707-708 (6th Cir. 1999); Webb
v. Exec. Realty P’ship, L.P. (In re Webb Mtn., LLC),
420 B.R. 418, 433 (Bankr. E.D. Tenn. 2009).
[*61] Petitioners contend that Holiday Bowl received
its own stock in exchange for Snow Hill Road.
Respondent argues that the redeemed shares had no
value because Holiday Bowl was insolvent on the
redemption date. When a corporation is insolvent at
the time of a stock redemption, the corporation
generally receives nothing of value from the return of
the stock as the stock is valueless to the corporation.
Consove v. Cohen (In re Roco Corp.), 701 F.2d 978, 982
(1st Cir. 1983). However, courts will look to other value
that a corporation may receive in conjunction with the
stock redemption when the corporation is insolvent,
such as release of a claim or waiver of rights, to find
reasonably equivalent value. Corporate Jet Aviation,
Inc. v. Vantress (In re Corporate Jet Aviation, Inc.), 57
B.R. 195, 199 (Bankr. N.D. Ga.1986) (a minority
shareholder’s waiver of his right to dissent to a
proposed sale of the corporation’s assets may constitute
reasonably equivalent value); Shaps v. Just Enough
Corp. (In re Pinto Trucking Serv. Inc.), 93 B.R. 379, 388
(Bankr. E.D. Pa. 1988) (release of legal claims against

App. 78
corporation and other shareholders may constitute
reasonably equivalent value). The redemption here was
not for reasonably equivalent value. Petitioners have
not identified anything of value that Holiday Bowl
received in the redemption. The redemption did not
change the respective ownership interests in Holiday
Bowl. Furthermore, as the MidCoast transaction was
a disguised liquidating distribution [*62] from Holiday
Bowl to petitioners, we find that Holiday Bowl did not
receive any value in the transaction.
3. Insolvency
The TUFTA constructive fraud provision at issue
requires the debtor to be insolvent at the time of the
transfer or to become insolvent as a result of the
transfer. Tenn. Code Ann. sec. 66-3-306(a). A debtor is
insolvent under TUFTA if the sum of its debts is
greater than its assets at a fair valuation. Id. In
addition, a debtor that fails to pay its debts as they
become due is presumed to be insolvent. Id. sec. 66-3303(b). Insolvency may be measured after a series of
related transfers that in total leave the transferor
insolvent. Botz v. Helvering, 134 F.2d 538, 543 (8th
Cir. 1943), aff’g 45 B.T.A. 970 (1941); Still v. Fuller (In
re Sw. Equip. Rental, Inc.), 1992 WL 684872; see
Hagaman v. Commissioner, 100 T.C. 180; Gumm v.
Commissioner, 93 T.C. 475, 480 (1989), aff’d without
published opinion, 933 F.2d 1014 (9th Cir. 1991).
The stock redemption rendered Holiday Bowl
insolvent only if considered in conjunction with the
MidCoast transaction. After the stock redemption,
without considering the MidCoast transaction, Holiday
Bowl would have held approximately $4.2 million in

App. 79
assets and $1.2 million in tax liabilities with a net
asset value of $3 million. However, the stock
redemption was part of a series of [*63] transactions
that led to Holiday Bowl’s insolvency. The redemption
and the MidCoast transaction are sufficiently related
that we can measure the effect of both events on
Holiday Bowl’s solvency together. Petitioners treated
the redemption and the MidCoast transaction as one
event for purposes of State tax law. The share purchase
agreement deemed the MidCoast transaction and the
redemption to occur simultaneously. They were
planned to occur together and in fact occurred on the
same day. See Weintraut v. Commissioner, T.C. Memo.
2016-142. Petitioners would not have engaged in the
redemption if the MidCoast transaction had not closed.
Rather Ms. Colletti advised distributing Snow Hill
Road in a liquidating distribution if the MidCoast
transaction did not take place. The redemption and the
MidCoast transaction were part of the same event: a
distribution of assets in complete liquidation.
Respondent did not concede that Holiday Bowl was
solvent after the stock redemption, as petitioners
argue, on the basis of the stipulation of Holiday Bowl’s
balance sheet dated November 7, 2003, that did not list
Snow Hill Road as a corporate asset. Petitioners
suggest that Holiday Bowl was not insolvent on the
basis of the funds held in the Delta Trading account,
arguing that either Holiday Bowl retained ownership
of the money held in this account or the transfer repaid
the Sequoia loans. The MidCoast transaction paid out
$3.45 million of Holiday [*64] Bowl’s assets to
petitioners, leaving Holiday Bowl with approximately
$700,000 in cash and $1.2 million in Federal and State

App. 80
tax. If we stop here, Holiday Bowl was insolvent; but
additional transfers were made to MidCoast of
approximately $320,000.
We hold that petitioners are subject to substantive
liability under TUFTA on the basis of constructive
fraud because they received Snow Hill Road and a
liquidating distribution from Holiday Bowl without
giving reasonably equivalent value in exchange for the
distributions. Those distributions resulted in Holiday
Bowl’s insolvency. Respondent’s claim for the 2003 tax
arose before the distributions. Accordingly, we find that
petitioners are liable for Holiday Bowl’s 2003 tax under
the constructive fraud provision of Tenn. Code Ann.
sec. 66-3-306.
II.

Transferee Liability Under Section 6901

For purposes of section 6901, the term “transferee”
includes a donee, heir, legatee, devisee, distributee, or
shareholder of a dissolved corporation. Sec. 6901(h);
sec. 301.6901-1(b), Proced. & Admin. Regs. The
principles of substance over form discussed above apply
to determinations of transferee liability under Federal
tax law. The MidCoast transaction served no business
purpose other than to avoid tax and to disguise
payment as coming from any entity other than Holiday
Bowl. The financial benefit to petitioners or MidCoast
is derived solely from the [*65] nonpayment of tax. The
MidCoast transaction had no economic effect except for
tax saving. The objective economic reality shows that
the MidCoast transaction was a liquidating
distribution. Petitioners are transferees of Holiday
Bowl under section 6901. Under section 6902(a)
petitioners bear the burden of proving that Holiday

App. 81
Bowl is not liable for the underlying tax liability or is
liable for a reduced amount. See Rule 142(d).
Petitioners have not challenged the underlying tax
liability.
The marital trusts received transfers from the
estate and are liable as successive transferees under
TUFTA and section 6901. The trusts provided no value
to the estate in exchange for the transfers. Judgment
may be entered against successive transferees for the
value of the transferred assets or the amount needed to
satisfy the creditor’s claim, whichever is less. Tenn.
Code Ann. sec. 66-3-309(b)(2).
III.

Reasonable Collection Efforts

Petitioners argue that they are not liable as
transferees because respondent failed to make
reasonable efforts to collect the 2003 tax from Holiday
Bowl. State law determines the Commissioner’s
obligation to pursue collection efforts against a
transferor before proceeding against a transferee.
Hagaman v. Commissioner, 100 T.C. at 183-184;
Kardash v. Commissioner, T.C. Memo. 2015-51, at *22.
[*66] TUFTA does not require a creditor to pursue
collection efforts against a transferor as a prerequisite
to transferee liability.
Any additional collection efforts against Holiday
Bowl would have been futile. See Zadorkin v.
Commissioner, T.C. Memo. 1985-137. The
reasonableness of collection efforts depends on the facts
of each case. Cullifer v. Commissioner, at *73.
Respondent completed his investigation into collection
potential against Mrs. Hawk before completing his

App. 82
investigation of Holiday Bowl and before issuing a
notice of deficiency or assessing tax against Holiday
Bowl. An IRS revenue officer spent only six hours on
his initial investigation before submitting his collection
reports. After the tax assessment against Holiday
Bowl, respondent conducted another investigation. The
IRS searched property and corporate records in
Tennessee and Nevada (the two States of Holiday
Bowl’s incorporation) for Holiday Bowl assets and
found none, obtained a business report, searched
internal databases, visited the last address available
for Holiday Bowl, and filed notices of Federal tax lien
in Nevada and Tennessee. The IRS confirmed with the
Corley family that Holiday Bowl had sold its operating
assets in 2003, filed its final return for 2005, and
dissolved in 2006. In fact, Holiday Bowl was insolvent
by the end of 2003. Respondent determined that
Holiday [*67] Bowl did not have any assets from which
to collect tax and made a reasonable collection effort.
Petitioners also argue that respondent cannot
pursue transferee liability against them because
respondent did not pursue transferee liability against
MidCoast or Sequoia. They cite no authority for the
argument that respondent must pursue all potential
transferees. Transferee liability is several under
section 6901. Alexander v. Commissioner, 61 T.C. 278,
295 (1973). We have held that the Commissioner may
proceed against any or all transferees in no particular
order. Cullifer v. Commissioner, at *74.

App. 83
IV.

Transferee Liability for Penalty

Respondent assessed a section 6662(h) 40% penalty
against Holiday Bowl for 2003 for a gross valuation
misstatement relating to the claimed loss deductions.
Transferee liability under section 6901 can include
related additions to tax, penalties, and interest owed by
the transferor. Kreps v. Commissioner, 42 T.C. at 670.
Petitioners rely on Stanko v. Commissioner, 209 F.3d
1082 (8th Cir. 2000), rev’g T.C. Memo. 1996-530, to
argue that a transferee is not liable for a penalty on the
basis of conduct that occurred after the transfer unless
the Commissioner proves the transferee’s fraudulent
intent. Id. at 1088. Petitioners [*68] argue that the
deficiency resulted from option transactions that
occurred in December 2003.
We have previously rejected similar arguments. See
Estate of Marshall v. Commissioner, T.C. Memo. 2016119; Tricarichi v. Commissioner, T.C. Memo. 2015-201.
Stanko involved pre-UFTA law that defined fraudulent
conveyances and held that because the penalty did not
exist at the time of the transfer, the creditor must
prove intent to defraud subsequent creditors. TUFTA’s
definition of “claim” is expansive and includes
unmatured and unliquidated claims, including the
penalty here regardless of whether the penalty existed
at the time of the transfer. Furthermore, the facts here
would support a finding of constructive fraud under the
two TUFTA provisions applicable to future creditors
that were enacted after Stanko and do not require proof

App. 84
of fraudulent intent.18 See Tenn. Code Ann. sec. 66-3305(a)(2).
[*69] We look to State law to determine whether there
is a basis to relieve petitioners of transferee liability for
the accuracy-related penalty. Under TUFTA, a creditor
may recover the lesser of: (1) the value of the asset
transferred, subject to adjustments or (2) the amount
necessary to satisfy the creditor’s claim. Id. sec. 66-3309(b). Where transferee liability is based on the value
of the asset, value is determined at the time of the
transfer subject to adjustment as equities may require.
Id. sec. 66-3-309(c). The transfers to Mrs. Hawk and
the exempt trust were less than the IRS claim against
Holiday Bowl so their liability is limited to the value of
the transferred assets. We have discretion to reduce
the judgment against the exempt trust and Mrs. Hawk
as equities warrant. See id. sec. 66-3-309(c). Such relief
is appropriate with respect to the penalty.
Mrs. Hawk relied on her husband’s longtime
attorney. Mrs. Hawk did not understand the
complexity of the tax law applicable to either the asset
sale or the MidCoast transaction. Mrs. Hawk was a
18

Tenn. Code Ann. sec. 66-3-305(a)(2) also imposes transferee
liability for constructive fraud, requires the same evidence of an
exchange of reasonably equivalent value, and applies to both
present and future creditors; however, instead of insolvency, it
requires evidence that either: (1) the debtor was engaged or was
about to engage in a business or a transaction for which the
debtor’s remaining assets were unreasonably small in relation to
the business or transaction or (2) the debtor intended to incur, or
believed or reasonably should have believed that the debtor would
incur, debts beyond the debtor’s ability to pay as they became due.
Id. sec. 66-3-305(a)(2)(A) and (B).

App. 85
homemaker for her nearly 50-year marriage and did
not have business experience. AmSouth’s trust officer
also relied on professionals, initially did not want to
pursue the transaction, was not involved in
negotiations, and generally deferred to Mrs. Hawk’s
decisions. Petitioners received only slightly more than
Holiday Bowl’s book value. They [*70] gave up
corporate stock with a book value of $3 million and
received a liquidating distribution of $3.45 million.
When the transferred assets exceed the amount of
the creditor’s claim, the transferee is liable for the full
amount of the creditor’s claim, and TUFTA does not
provide for equitable adjustments. Tenn. Code Ann.
sec. 66-3-309(a). The estate and the nonexempt trust
received transfers in excess of the amount of the IRS
claim. We do not have discretion to adjust their liability
for equitable considerations. Accordingly, we find the
estate and the nonexempt trust are liable for the
accuracy-related penalty against Holiday Bowl.
Petitioners also seek to reduce any transferee liability
attributable to their status as beneficiaries of the
estate (the exempt and nonexempt trusts) by their
estate tax liabilities on the transfers from the estate,
citing Estate of Cury v. Commissioner, 23 T.C. 305,
341-342 (1954). Transferee liability is measured by the
value of assets received, reduced by the value of
liabilities assumed by the transferee. Id. Respondent
did not object to this computation in his briefs.
V.

Petitioners’ Liability for Interest

Petitioners argue that we should not hold them
liable for prejudgment interest because prejudgment
interest is discretionary under Tennessee law and

App. 86
depends on the equities of the case. See Tenn. Code
Ann. sec. 47-14-123. Under [*71] Federal tax law,
interest in transferee liability cases is calculated in two
separate periods, prenotice and postnotice; the
applicable notice is the notice of transferee liability.
Prejudgment interest (a State law term) includes
prenotice interest and a portion of the postnotice
interest. The postnotice interest period begins on the
issuance of the notice of transferee liability and ends
when the tax is paid in full. Estate of Stein v.
Commissioner, 37 T.C. 945, 959 (1962). Postnotice
interest (including the portion that is prejudgment) is
determined under Federal law and applies regardless
of the value of the transferred asset. We hold that each
petitioner is liable for postnotice interest pursuant to
section 6601(a).
A transferee’s liability for prenotice interest
depends on the value of the assets the transferee
received. If the transferee received assets valued at less
than the IRS claim, State law governs liability for
prenotice interest, including the applicable rate. Lowy
v. Commissioner, 35 T.C. 393, 395 (1960). Interest
begins no earlier than the transfer date. Id. If the
transferee received assets valued in excess of the IRS
claim, prenotice interest begins on the due date of the
transferor’s tax and ends upon issuance of the notice of
transferee liability, and Federal law determines the
transferee liability for interest. Estate of Stein v.
Commissioner, 37 T.C. at 961.

App. 87
[*72] A. Mrs. Hawk’s and the Exempt Trust’s
Liability for Prenotice Interest
Since Mrs. Hawk and the exempt trust received
transfers of less than Holiday Bowl’s 2003 tax, penalty,
and interest, Tennessee law determines their liability
for prenotice interest. Under Tennessee law, the award
of prejudgment interest is discretionary and depends
upon the equities of the case. Tenn. Code Ann. sec. 4714-123; McDonald v. Morgan (In re Morgan), 415 B.R.
644, 651 (Bankr. E.D. Tenn. 2009). The purpose of
prejudgment interest is to compensate the IRS for loss
of the use of the funds. Baptist Physician Hosp. Org.,
Inc. v. Humana Military Healthcare Serv., 415 F. Supp.
2d 835 (E.D. Tenn. 2006). Courts may award
prejudgment interest where the transferee had full
access to and use of the money pending the case, and
the IRS has not otherwise been compensated for the
loss of the use of the funds. Courts have considered
other equitable factors to determine whether
prejudgment interest is appropriate including: whether
the amount owed was easily ascertainable before
judgment, whether the transferee had reasonable
grounds to dispute transferee liability, and whether
there were unreasonable delays in the case. Myint v.
Allstate Ins., 970 S.W.2d 920, 927-928 (Tenn. 1998);
Dog House Invs., LLC. v. Teal Props., Inc., 448 S.W.3d
905 (Tenn. Ct. App. 2014); Wilder v. Tenn. Farmers
Mut. Ins. Co., 912 S.W.2d 722, 727 (Tenn. Ct. App.
1995) (prejudgment interest inequitable [*73] where
the defendant had reasonable defense against claim
and lawsuit extended because of court delays);
BancorpSouth Bank v. 51 Concrete, LLC, 2016 WL
1211433 (Tenn. Ct. App. Mar. 28, 2016) (prejudgment

App. 88
interest proper where there were no reasonable
grounds to dispute the debt).
With respect to Mrs. Hawk and the exempt trust,
we must determine whether prenotice interest is
appropriate and if judged appropriate, set a date that
prenotice interest begins to accrue to achieve an
equitable result. We find that Mrs. Hawk and the
exempt trust are not liable for prenotice interest on the
basis of the equities. While they had use of the funds
and the amount was easily determinable, delays
outside these petitioners’ control factor into our
decision to relieve them from liability for prenotice
interest. Petitioners filed informal discovery in 2010
and interrogatories in 2011. Respondent failed to
provide a significant portion of the documentary
evidence that he had in his possession until 2013, and
petitioners filed a motion to compel respondent to
answer interrogatories in January 2014. In 2011
respondent sought a stay in these cases because of a
pending criminal case against MidCoast
representatives that did not involve petitioners. As
transferees, petitioners had a disadvantage as they did
not control the filing of the tax return, the tax
payment, or the tax documentation for [*74] the
underlying tax liability. Under these circumstances, we
will not award respondent prenotice interest with
respect Mrs. Hawk and the exempt trust.
B. Exempt Trust and the Estate’s Liability for
Prenotice Interest
Federal law controls the liability of the nonexempt
trust and the estate for prenotice interest because both
petitioners received assets valued in excess of the IRS

App. 89
claim. No equitable considerations are available to
relieve the estate or the nonexempt trust of liability for
prenotice interest under Federal law. Accordingly we
hold that the nonexempt trust and the estate are liable
for prenotice interest.
In reaching our holdings herein, we have considered
all arguments made, and to the extent not mentioned
above, we conclude that they are moot, irrelevant, or
without merit.
To reflecting the foregoing,
Decisions will be entered under Rule 155.

App. 90

APPENDIX C
Tenn. Code Ann. § 66-3-301
66-3-301. Short title.
This part may be cited as the “Uniform Fraudulent
Transfer Act.”
Tenn. Code Ann. § 66-3-302
66-3-302. Part definitions.
As used in this part:
(1) “Affiliate” means:
(A) A person who directly or indirectly owns,
controls, or holds with power to vote, twenty
percent (20%) or more of the outstanding voting
securities of the debtor, other than a person who
holds the securities:
(i) As a fiduciary or agent without sole
discretionary power to vote the securities; or
(ii) Solely to secure a debt, if the person has not
exercised the power to vote;
(B) A corporation twenty percent (20%) or more of
whose outstanding voting securities are directly or
indirectly owned, controlled, or held with power to
vote, by the debtor or a person who directly or
indirectly owns, controls, or holds with power to
vote, twenty percent (20%) or more of the

App. 91
outstanding voting securities of the debtor, other
than a person who holds the securities:
(i) As a fiduciary or agent without sole power to
vote the securities; or
(ii) Solely to secure a debt, if the person has not
in fact exercised the power to vote;
(C) A person whose business is operated by the
debtor under a lease or other agreement, or a
person substantially all of whose assets are
controlled by the debtor; or
(D) A person who operates the debtor’s business
under a lease or other agreement or controls
substantially all of the debtor’s assets;
(2) “Asset” means property of a debtor, but the term
does not include:
(A) Property to the extent it is encumbered by a
valid lien;
(B) Property to the extent it is generally exempt
under nonbankruptcy law; or
(C) An interest in property held in tenancy by the
entireties to the extent it is not subject to process by
a creditor holding a claim against only one
(1) tenant;
(3) “Claim” means a right to payment, whether or not
the right is reduced to judgment, liquidated,
unliquidated, fixed, contingent, matured, unmatured,
disputed, undisputed, legal, equitable, secured, or
unsecured;

App. 92
(4) “Creditor” means a person who has a claim;
(5) “Debt” means liability on a claim;
(6) “Debtor” means a person who is liable on a claim;
(7) “Insider” includes:
(A) If the debtor is an individual:
(i) A relative of the debtor or of a general partner
of the debtor;
(ii) A partnership in which the debtor is a
general partner;
(iii) A general partner in a partnership described
in subdivision (7)(A)(ii); or
(iv) A corporation of which the debtor is a
director, officer, or person in control;
(B) If the debtor is a corporation:
(i) A director of the debtor;
(ii) An officer of the debtor;
(iii) A person in control of the debtor;
(iv) A partnership in which the debtor is a
general partner;
(v) A general partner in a partnership described
in subdivision (7)(B)(iv); or
(vi) A relative of a general partner, director,
officer, or person in control of the debtor;
(C) If the debtor is a partnership:

App. 93
(i) A general partner in the debtor;
(ii) A relative of a general partner in, or a
general partner of, or a person in control of the
debtor;
(iii) Another partnership in which the debtor is
a general partner;
(iv) A general partner in a partnership described
in subdivision (7)(C)(iii); or
(v) A person in control of the debtor;
(D) An affiliate, or an insider of an affiliate as if the
affiliate were the debtor; and
(E) A managing agent of the debtor;
(8) “Lien” means a charge against or an interest in
property to secure payment of a debt or performance of
an obligation, and includes a security interest created
by agreement, a judicial lien obtained by legal or
equitable process or proceedings, a common-law lien, or
a statutory lien;
(9) “Person” means an individual, partnership,
corporation, association, organization, government or
governmental subdivision or agency, business trust,
estate, trust, or any other legal or commercial entity;
(10) ‘”Property” means anything that may be the
subject of ownership;
(11) “Relative” means an individual related by
consanguinity within the third degree as determined by
the common law, a spouse, or an individual related to
a spouse within the third degree as so determined, and

App. 94
includes an individual in an adoptive relationship
within the third degree;
(12) “Transfer” means every mode, direct or indirect,
absolute or conditional, voluntary or involuntary, of
disposing of or parting with an asset or an interest in
an asset, and includes payment of money, release,
lease, and creation of a lien or other encumbrance; and
(13) “Valid lien” means a lien that is effective against
the holder of a judicial lien subsequently obtained by
legal or equitable process or proceedings.
Tenn. Code Ann. § 66-3-303
66-3-303. Insolvency.
(a) A debtor is insolvent if the sum of the debtor’s debts
is greater than all of the debtor’s assets, at a fair
valuation.
(b) A debtor who is generally not paying such debtor’s
debts as they become due is presumed to be insolvent.
(c) A partnership is insolvent under subsection (a) if
the sum of the partnership’s debts is greater than the
aggregate of all of the partnership’s assets, at a fair
valuation, and the sum of the excess of the value of
each general partner’s nonpartnership assets over the
partner’s nonpartnership debts.
(d) Assets under this section do not include property
that has been transferred, concealed, or removed with
intent to hinder, delay, or defraud creditors or that has
been transferred in a manner making the transfer
voidable under this part.

App. 95
(e) Debts under this section do not include an
obligation to the extent it is secured by a valid lien on
property of the debtor not included as an asset.
Tenn. Code Ann. § 66-3-304
66-3-304. Value.
(a) Value is given for a transfer or an obligation if, in
exchange for the transfer or obligation, property is
transferred or an antecedent debt is secured or
satisfied, but value does not include an unperformed
promise made otherwise than in the ordinary course of
the promisor’s business to furnish support to the debtor
or another person.
(b) For the purposes of §§ 66-3-305(a)(2) and 66-3-306,
a person gives a reasonably equivalent value if the
person acquires an interest of the debtor in an asset
pursuant to a regularly conducted, noncollusive
foreclosure sale or execution of a power of sale for the
acquisition or disposition of the interest of the debtor
upon default under a mortgage, deed of trust, or
security agreement.
(c) A transfer is made for present value if the exchange
between the debtor and the transferee is intended by
them to be contemporaneous and is in fact
substantially contemporaneous.

App. 96
Tenn. Code Ann. § 66-3-305
66-3-305. Transfers fraudulent as to present and
future creditors.
(a) A transfer made or obligation incurred by a debtor
is fraudulent as to a creditor, whether the creditor’s
claim arose before or after the transfer was made or the
obligation was incurred, if the debtor made the transfer
or incurred the obligation:
(1) With actual intent to hinder, delay, or defraud
any creditor of the debtor; or
(2) Without receiving a reasonably equivalent value
in exchange for the transfer or obligation, and the
debtor:
(A) Was engaged or was about to engage in a
business or a transaction for which the
remaining assets of the debtor were
unreasonably small in relation to the business or
transaction; or
(B) Intended to incur, or believed or reasonably
should have believed that the debtor would
incur, debts beyond the debtor’s ability to pay as
they became due.
(b) In determining actual intent under subdivision
(a)(1), consideration may be given, among other factors,
to whether:
(1) The transfer or obligation was to an insider;
(2) The debtor retained possession or control of the
property transferred after the transfer;

App. 97
(3) The transfer or obligation was disclosed or
concealed;
(4) Before the transfer was made or obligation was
incurred, the debtor had been sued or threatened
with suit;
(5) The transfer was of substantially all the debtor’s
assets;
(6) The debtor absconded;
(7) The debtor removed or concealed assets;
(8) The value of the consideration received by the
debtor was reasonably equivalent to the value of the
asset transferred or the amount of the obligation
incurred;
(9) The debtor was insolvent or became insolvent
shortly after the transfer was made or the
obligation was incurred;
(10) The transfer occurred shortly before or shortly
after a substantial debt was incurred; and
(11) The debtor transferred the essential assets of
the business to a lien or who transferred the assets
to an insider of the debtor.
Tenn. Code Ann. § 66-3-306
66-3-306. Transfers fraudulent as to present
creditors.
(a) A transfer made or obligation incurred by a debtor
is fraudulent as to a creditor whose claim arose before
the transfer was made or the obligation was incurred

App. 98
if the debtor made the transfer or incurred the
obligation without receiving a reasonably equivalent
value in exchange for the transfer or obligation and the
debtor was insolvent at that time or the debtor became
insolvent as a result of the transfer or obligation.
(b) A transfer made by a debtor is fraudulent as to a
creditor whose claim arose before the transfer was
made if the transfer was made to an insider for an
antecedent debt, the debtor was insolvent at that time,
and the insider had reasonable cause to believe that
the debtor was insolvent.
Tenn. Code Ann. § 66-3-307
66-3-307. When transfer is made or obligation is
incurred.
For the purposes of this part:
(1) A transfer is made:
(A) With respect to an asset that is real property
other than a fixture, but including the interest of a
seller or purchaser under a contract for the sale of
the asset, when the transfer is so far perfected that
a good-faith purchaser of the asset from the debtor
against whom applicable law permits the transfer
to be perfected cannot acquire an interest in the
asset that is superior to the interest of the
transferee; and
(B) With respect to an asset that is not real property
or that is a fixture, when the transfer is so far
perfected that a creditor on a simple contract cannot
acquire a judicial lien otherwise than under this

App. 99
part that is superior to the interest of the
transferee;
(2) If applicable law permits the transfer to be
perfected as provided in subdivision (1)(A) and the
transfer is not so perfected before the commencement
of an action for relief under this part, the transfer is
deemed made immediately before the commencement
of the action;
(3) If applicable law does not permit the transfer to be
perfected as provided in subdivision (1)(A), the transfer
is made when it becomes effective between the debtor
and the transferee;
(4) A transfer is not made until the debtor has acquired
rights in the asset transferred; or
(5) An obligation is incurred:
(A) If oral, when it becomes effective between the
parties; or
(B) If evidenced by a writing, when the writing
executed by the obligor is delivered to or for the
benefit of the obligee.
Tenn. Code Ann. § 66-3-308
66-3-308. Remedies of creditors.
(a) In an action for relief against a transfer or
obligation under this part, a creditor, subject to the
limitations in § 66-3-309, may obtain:
(1) Avoidance of the transfer or obligation to the
extent necessary to satisfy the creditor’s claim;

App. 100
(2) An attachment or other provisional remedy
against the asset transferred or other property of
the transferee in accordance with the procedure
prescribed by title 26;
(3) Subject to applicable principles of equity and in
accordance with applicable rules of civil procedure:
(A) An injunction against further disposition by
the debtor or a transferee, or both, of the asset
transferred or of other property;
(B) Appointment of a receiver to take charge of
the asset transferred or of other property of the
transferee; or
(C) Any other relief the circumstances may
require.
(b) If a creditor has obtained a judgment on a claim
against the debtor, the creditor, if the court so orders,
may levy execution on the asset transferred or its
proceeds.
Tenn. Code Ann. § 66-3-309
66-3-309. Defenses, liability, and protection of
transferee.
(a) A transfer or obligation is not voidable under § 66-3305(a)(1) against a person who took in good faith and
for a reasonably equivalent value or against any
subsequent transferee or obligee.
(b) Except as otherwise provided in this section, to the
extent a transfer is voidable in an action by a creditor
under § 66-3-308(a)(1), the creditor may recover

App. 101
judgment for the value of the asset transferred, as
adjusted under subsection (c), or the amount necessary
to satisfy the creditor’s claim, whichever is less. The
judgment may be entered against:
(1) The first transferee of the asset or the person for
whose benefit the transfer was made; or
(2) Any subsequent transferee other than a goodfaith transferee or obligee who took for value or
from any subsequent transferee or obligee.
(c) If the judgment under subsection (b) is based upon
the value of the asset transferred, the judgment must
be for an amount equal to the value of the asset at the
time of the transfer, subject to adjustment as the
equities may require.
(d) Notwithstanding voidability of a transfer or an
obligation under this part, a good-faith transferee or
obligee is entitled, to the extent of the value given the
debtor for the transfer or obligation, to:
(1) A lien on or a right to retain any interest in the
asset transferred;
(2) Enforcement of any obligation incurred; or
(3) A reduction in the amount of the liability on the
judgment.
(e) A transfer is not voidable under § 66-3-305(a)(2) or
§ 66-3-306 if the transfer results from:
(1) Termination of a lease upon default by the
debtor when the termination is pursuant to the
lease and applicable law; or

App. 102
(2) Enforcement of a security interest in compliance
with title 47, chapter 9 of the Uniform Commercial
Code.
(f) A transfer is not voidable under § 66-3-306(b):
(1) To the extent the insider gave new value to or
for the benefit of the debtor after the transfer was
made unless the new value was secured by a valid
lien;
(2) If made in the ordinary course of business or
financial affairs of the debtor and the insider; or
(3) If made pursuant to a good-faith effort to
rehabilitate the debtor and the transfer secured
present value given for that purpose as well as an
antecedent debt of the debtor.
Tenn. Code Ann. § 66-3-310
66-3-310. Extinguishment of cause of action.
A cause of action with respect to a fraudulent transfer
or obligation under this part is extinguished unless
action is brought:
(1)Under § 66-3-305(a)(1), within four (4) years after
the transfer was made or the obligation was
incurred or, if later, within one (1) year after the
transfer or obligation was or could reasonably have
been discovered by the claimant;
(2) Under § 66-3-305(a)(2) or § 66-3-306(a), within
four (4) years after the transfer was made or the
obligation was incurred; or

App. 103
(3) Under § 66-3-306(b), within four (4) years after
the transfer was made or the obligation was
incurred.
Tenn. Code Ann. § 66-3-311
66-3-311. Supplementary provisions.
Unless displaced by the provisions of this part, the
principles of law and equity, including the law
merchant and the law relating to principal and agent,
estoppel, laches, fraud, misrepresentation, duress,
coercion, mistake, insolvency, or other validating or
invalidating cause, supplement its provisions.
Tenn. Code Ann. § 66-3-312
66-3-312. Uniformity
construction.

of

application

and

This part shall be applied and construed to effectuate
its general purpose to make uniform the law with
respect to the subject of this part among states
enacting it.
Tenn. Code Ann. § 66-3-313
66-3-313. Official comments.
In any dispute as to the proper construction of one or
more sections of this part, the official comments
pertaining to the corresponding sections of the Uniform
Fraudulent Transfers Act, official text, as adopted by
the National Conference of Commissioners on Uniform
State Laws and as in effect on July 1, 2003, shall
constitute evidence of the purposes and policies
underlying such sections, unless:

App. 104
(1) The sections of this part that are applicable to
the dispute differ materially from the sections of the
official text that would be applicable thereto; or
(2) The official comments are inconsistent with the
plain meaning of the applicable sections of this part.
26 U.S.C. § 6901
§ 6901. Transferred assets.
(a) Method of collection. The amounts of the following
liabilities shall, except as hereinafter in this section
provided, be assessed, paid, and collected in the same
manner and subject to the same provisions and
limitations as in the case of the taxes with respect to
which the liabilities were incurred:
(1) Income, estate, and gift taxes.
(A) Transferees. The liability, at law or in
equity, of a transferee of property—
(i) of a taxpayer in the case of a tax imposed
by subtitle A (relating to income taxes),
(ii) of a decedent in the case of a tax imposed
by chapter 11 (relating to estate taxes), or
(iii) of a donor in the case of a tax imposed by
chapter 12 (relating to gift taxes), in respect
of the tax imposed by subtitle A or B.
(B) Fiduciaries. The liability of a fiduciary under
section 3713(b) of title 31, United States Code, in
respect of the payment of any tax described in
subparagraph (A) from the estate of the

App. 105
taxpayer, the decedent, or the donor, as the case
may be.
(2) Other taxes. The liability, at law or in equity of
a transferee of property of any person liable in
respect of any tax imposed by this title (other than
a tax imposed by subtitle A or B), but only if such
liability arises on the liquidation of a partnership or
corporation, or on a reorganization within the
meaning of section 368(a).
(b) Liability. Any liability referred to in subsection (a)
may be either as to the amount of tax shown on a
return or as to any deficiency or underpayment of any
tax.
(c) Period of limitations. The period of limitations for
assessment of any such liability of a transferee or a
fiduciary shall be as follows:
(1) Initial transferee. In the case of the liability of
an initial transferee, within 1 year after the
expiration of the period of limitation for assessment
against the transferor;
(2) Transferee of transferee. In the case of the
liability of a transferee of a transferee, within 1
year after the expiration of the period of limitation
for assessment against the preceding transferee,
but not more than 3 years after the expiration of the
period of limitation for assessment against the
initial transferor;
except that if, before the expiration of the period of
limitation for the assessment of the liability of the
transferee, a court proceeding for the collection of
the tax or liability in respect thereof has been begun

App. 106
against the initial transferor or the last preceding
transferee, respectively, then the period of
limitation for assessment of the liability of the
transferee shall expire 1 year after the return of
execution in the court proceeding.
(3) Fiduciary. In the case of the liability of a
fiduciary, not later than 1 year after the liability
arises or not later than the expiration of the period
for collection of the tax in respect of which such
liability arises, whichever is the later.
(d) Extension by agreement.
(1) Extension of time for assessment. If before the
expiration of the time prescribed in subsection (c)
for the assessment of the liability, the Secretary and
the transferee or fiduciary have both consented in
writing to its assessment after such time, the
liability may be assessed at any time prior to the
expiration of the period agreed upon. The period so
agreed upon may be extended by subsequent
agreements in writing made before the expiration of
the period previously agreed upon. For the purpose
of determining the period of limitation on credit or
refund to the transferee or fiduciary of
overpayments of tax made by such transferee or
fiduciary or overpayments of tax made by the
transferor of which the transferee or fiduciary is
legally entitled to credit or refund, such agreement
and any extension thereof shall be deemed an
agreement and extension thereof referred to in
section 6511(c).

App. 107
(2) Extension of time for credit or refund. If the
agreement is executed after the expiration of the
period of limitation for assessment against the
taxpayer with reference to whom the liability of
such transferee or fiduciary arises, then in applying
the limitations under section 6511(c) on the amount
of the credit or refund, the periods specified in
section 6511(b)(2) shall be increased by the period
from the date of such expiration to the date of the
agreement.
(e) Period for assessment against transferor. For
purposes of this section, if any person is deceased, or is
a corporation which has terminated its existence, the
period of limitation for assessment against such person
shall be the period that would be in effect had death or
termination of existence not occurred.
(f) Suspension of running of period of limitations. The
running of the period of limitations upon the
assessment of the liability of a transferee or fiduciary
shall, after the mailing to the transferee or fiduciary of
the notice provided for in section 6212 (relating to
income, estate, and gift taxes), be suspended for the
period during which the Secretary is prohibited from
making the assessment in respect of the liability of the
transferee or fiduciary (and in any event, if a
proceeding in respect of the liability is placed on the
docket of the Tax Court, until the decision of the Tax
Court becomes final), and for 60 days thereafter.
(g) Address for notice of liability. In the absence of
notice to the Secretary under section 6903 of the
existence of a fiduciary relationship, any notice of
liability enforceable under this section required to be

App. 108
mailed to such person, shall, if mailed to the person
subject to the liability at his last known address, be
sufficient for purposes of this title, even if such person
is deceased, or is under a legal disability, or, in the case
of a corporation, has terminated its existence.
(h) Definition of transferee. As used in this section, the
term “transferee” includes donee, heir, legatee, devisee,
and distributee, and with respect to estate taxes, also
includes any person who, under section 6324(a)(2), is
personally liable for any part of such tax.
(i) Extension of time. For extensions of time by reason
of armed service in a combat zone, see section 7508.

